Office of
Inspector
General

Medicaid Integrity
Program Report
for Fiscal Year 2011




March 2012
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011




                                                       Contents

FY 2011 Funding for Program Integrity                                                                                            1
        Sources of Funding ------------------------------------------------------------------------------------------------------ 1
        Overlap Among Oversight Activities--------------------------------------------------------------------------------- 2

FY 2011 Medicaid-Related Audits and Evaluations                                                                                  3
        Federal and State Medicaid Partnership --------------------------------------------------------------------------- 3
        Prescription Drug Pricing Reviews ----------------------------------------------------------------------------------- 3
        Manufacturers’ Rebates for Medicaid Prescription Drugs ------------------------------------------------------ 4
        Manufacturers’ Rebates for Medicaid Compared to Medicare Part D -------------------------------------- 5
        State Claims for Federal Reimbursement -------------------------------------------------------------------------- 5
        Other Payment-Related Reviews ----------------------------------------------------------------------------------- 10
        States’ Program Management and Oversight ------------------------------------------------------------------- 11

FY 2011 Medicaid-Related Legal and Investigative Outcomes                                                                      12
        Education and Outreach --------------------------------------------------------------------------------------------- 12
        Criminal and Civil Enforcement ------------------------------------------------------------------------------------ 12
        Oversight of and Joint Investigations With Medicaid Fraud Control Units ------------------------------- 16


Appendixes
        Appendix A – List of Medicaid Reports Issued in Fiscal Year 2011
        Appendix B – List of Medicaid Projects in Fiscal Year 2012 Work Plan
        Appendix C – Deficit Reduction Act of 2005 Provisions
        Appendix D – Acronyms and Abbreviations




March 2012
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011




FY 2011 Funding for
Program Integrity

Sources of Funding


D    uring fiscal year (FY) 2011, the Office of Inspector General (OIG) of the Department of Health and Human
     Services (HHS) utilized funding to oversee the integrity of Medicaid activities from three sources: the
Health Care Fraud and Abuse Control (HCFAC) program, created by the Health Insurance Portability and
Accountability Act of 1996 (HIPAA); the Medicaid Integrity Program (MIP), created by the Deficit Reduction
Act of 2005 (DRA); and the American Recovery and Reinvestment Act of 2009 (Recovery Act). Following are
descriptions of each funding source.
HEATH CARE FRAUD AND ABUSE CONTROL PROGRAM. The HCFAC program was established by HIPAA to be under
the joint direction of the Attorney General and the Secretary of HHS, acting through the Inspector General.
Funds are appropriated in amounts that the Secretary and Attorney General jointly certify as necessary to
finance antifraud activities, up to ceilings fixed by the legislation. Certain of these funds are, by law, set aside
for OIG “activities … with respect to Medicare and Medicaid.” 1 HIPAA also requires the Attorney General and
the Secretary of HHS to submit a joint annual report to Congress identifying expenditures and
accomplishments under the law (Social Security Act, § 1817(k)(5)). These reports are available on the Web
sites of both agencies at: http://www.oig.hhs.gov/publications/hcfac.asp and
http://www.usdoj.gov/dag/pubdoc.html.
Since FY 1997, the HCFAC program has been the primary source of funding for Medicare and Medicaid fraud
investigations and prosecutions by OIG and the Department of Justice (DOJ). Beginning in FY 2009, we began
receiving discretionary funding in support of HCFAC activities to provide additional resources for program
integrity work.
•      MEDICAID INTEGRITY PROGRAM. Section 6034 of the DRA established the MIP, through which we received
       enhanced funding for fraud and abuse control activities “with respect to the Medicaid program” (section
       6034(c)). This funding was provided annually from FY 2006 through FY 2010 in addition to our HCFAC
       resources and is available until expended. In FY 2011, MIP funds were still available. Specific DRA
       requirements that pertain to our office are described in Appendix C.
•      OTHER MEDICAID OVERSIGHT FUNDING. We receive funding to oversee the integrity of Medicaid activities
       from other sources. In 2009, the American Recovery and Reinvestment Act of 2009 (Recovery Act or
       ARRA) provided funding to ensure proper expenditure of Federal funds under title XIX of the Social
       Security Act (Medicaid). This funding, which was provided in FY 2009, was available until September 30,
       2011.




1
    Social Security Act, § 1817(k)(3)(A).


March 2012                                                                                                    Page 1
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011




Overlap Among Oversight Activities

Because there is an overlap among the oversight activities funded by HCFAC, MIP, and other sources, our
work relating to Medicaid may draw on funding from more than one source. For investigations and
prosecutions, it is particularly difficult (sometimes impossible) to accurately segregate enforcement activities
by funding stream. For example, even if we conduct an investigation exclusively with MIP funds, the
prosecution of that case could draw upon DOJ’s HCFAC funding and the matter would be reportable pursuant
to the requirements of both the HCFAC and MIP programs. An overlap could also occur when an investigation
involves fraud in Medicaid and other Federal health care programs, such as Medicare, as is often the case.
For these reasons, this document does not artificially divide accomplishments among funding sources; our
Medicaid successes are typically the result of combined funding from available resources.
Our audit, evaluation, and investigation work often requires more than a year to yield results. As a
consequence, many of the reviews and investigations summarized in this document reflect the results of our
work over several years that culminated in FY 2011.


                                ALLOCATION OF STATUTORY FUNDING STREAMS FOR
                               MEDICAID INTEGRITY OVERSIGHT, FY 2006 – FY 2011
                                                (Dollars in Millions)



             Funding Appropriated to         Estimated OIG
               OIG tor Health Care      Obligations For Medicaid
                                                                                              Estimated Percentage
                    Oversight                   Oversight
                                                                        Estimated Total OIG     of OIG Health Care
    Fiscal HIPAA/        MIP &        HIPAA/      MIP &                    Obligations for    Oversight Obligations
    Year   HCFAC         Other        HCFAC       Other                 Medicaid Oversight    for Medicaid Integrity
  2006      $160          $25          $45          –              $45                                28 %
  2007      $166          $25          $25         $29             $53                                28 %
  2008      $170          $25          $33         $29             $62                                31 %
 20092      $196          $81          $34         $31             $65                                29 %
  2010      $209          $25          $42         $34             $76                                32%
  2011      $228          $0           $37         $39             $76                                28%
Note: Numbers have been updated and are approximate because of rounding.


The table illustrates that a sizable portion of OIG's obligated funding has been used for Medicaid oversight in
recent years.




2
 In FY 2009, OIG received a 42-percent increase in funding available for Medicare and Medicaid program integrity
activities. OIG was appropriated $25 million for Medicaid oversight through the Supplemental Appropriations Act
of 2008 and $31.25 million for Medicaid oversight through the Recovery Act. Because of this significant increase
and consistent with the purpose of the funding, OIG manages oversight work over multiple years.


March 2012                                                                                                         Page 2
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



FY 2011
Medicaid-Related
Audits and Evaluations

Federal and State Medicaid Partnership

The Federal Government and States jointly administer and fund the cost of the Medicaid medical assistance
program. Although the States have considerable flexibility in designing and operating their Medicaid
programs, they must comply with applicable Federal requirements to receive a Federal share of costs.
At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
At the State level, State agencies administer their Medicaid programs in accordance with broad Federal
CMS-approved State plans. The Federal share of Medicaid expenditures varies from State to State. In recent
years, the Federal Government has reimbursed about 57 percent of States’ Medicaid expenditures. However,
in FY 2010, the Federal Government reimbursed about 68 percent of such expenditures. A significant portion
of the increase in the Federal share was attributable to the temporary increase in Federal Medical Assistance
Percentage (FMAP) rates pursuant to the Recovery Act. 3 For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provided an estimated $87 billion in additional
Medicaid funding based on temporary increases in FMAPs.
The sections that follow highlight significant problems, abuses, and deficiencies disclosed in reports of audits
and evaluations that we issued in FY 2011. These matters were also reported in OIG’s spring and fall
Semiannual Report(s) to Congress during FY 2011. Summaries and the full text of the reports are published
on our Web site at http://www.oig.hhs.gov.


Prescription Drug Pricing Reviews

REPLACING AVERAGE WHOLESALE PRICE (AWP) AS A DRUG PRICING POINT. ALMOST HALF OF THE 45 STATES THAT USED
AWP TO SET REIMBURSEMENT FOR PRESCRIPTION DRUGS IN THE FIRST QUARTER OF 2011 DID NOT HAVE DEFINITIVE PLANS FOR
HOW THEY WOULD REIMBURSE DRUGS AFTER FIRST DATABANK, A PRIMARY SOURCE OF DATA, STOPPED PUBLISHING AWPS IN
SEPTEMBER 2011. Most States (44 of 51) said they would prefer a single national benchmark to set Medicaid
reimbursement rates, and 24 States specifically wanted a benchmark based on pharmacy acquisition costs.
We recommended that CMS develop a national benchmark that accurately approximates pharmacy
acquisition costs and encourage States to consider it when determining Medicaid reimbursement for
prescription drugs. Replacing Average Wholesale Price: Medicaid Drug Payment Policy. OEI-03-11-00060.
July 2011. Web Summary. Full Text.
IMPROVING TRANSPARENCY OF DATA FOR DRUGS BILLED TO MEDICAID BY 340B ENTITIES. STATE MEDICAID AGENCIES
LACK THE POLICIES AND INFORMATION THEY NEED TO OVERSEE REIMBURSEMENTS FOR DRUGS PURCHASED PURSUANT TO THE DRUG
DISCOUNT PROGRAM IN THE PUBLIC HEALTH SERVICE ACT, § 340B, (340B PROGRAM).     About half of States do not have

3
    CMS FY 2012 Justification of Estimates for Appropriations Committees, p. 108.


March 2012                                                                                                  Page 3
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



written policies for how 340B-covered entities are to bill Medicaid for reimbursement, and none of the States
have drug pricing information necessary to create prepayment system edits to prevent overpaying for
340B-purchased drugs. The 340B program requires drug manufacturers to provide covered outpatient drugs
to certain eligible health care entities at or below statutorily defined discount prices. The Affordable Care
Act 4 requires the Secretary to issue new guidance describing methodologies available to covered entities for
billing 340B-purchased drugs. State Medicaid Policies and Oversight Activities Related to 340B-Purchased
Drugs. OEI-05-09-00321. Affordable Care Act. June 2011. Web Summary. Full Text.


Manufacturers’ Rebates for Medicaid Prescription Drugs

•   MANUFACTURERS’ REBATES REDUCE MEDICAID’S BRAND-NAME DRUG COSTS. ALTHOUGH PRICES AND PAYMENT
    AMOUNTS FOR MEDICAID BRAND-NAME DRUGS INCREASED AT ABOUT THREE TIMES THE INFLATION RATE BETWEEN 2005 AND
    2010, THE SIGNIFICANT INCREASE WAS OFFSET BY SAVINGS GENERATED BY MEDICAID’S DRUG REBATE PROGRAM.
    Medicaid's net costs for brand-name drugs actually increased at a lower rate than other points of
    comparison, including the inflation rate. Medicaid Brand-Name Drugs: Rising Prices Are Offset by
    Manufacturer Rebates. OEI-03-10-00260. August 2011. Web Summary. Full Text.
•   IMPROVING STATES’ COLLECTIONS OF DRUG REBATES. IN A NATIONWIDE FOLLOWUP TO A 2005 REVIEW OF MEDICAID
    DRUG REBATE PROGRAMS, WE FOUND THAT MANY STATES STILL NEED TO MAKE IMPROVEMENTS IN THEIR REBATE COLLECTION
    EFFORTS. States lack adequate assurance that all drug rebates due them are properly recorded and
    collected. Fourteen States and the District of Columbia implemented the recommendations from the
    previous reviews. Of the 31 remaining States with previous recommendations, 27 implemented at least 1
    recommendation and 4 States did not fully implement any of the recommendations. We identified new
    weaknesses in four States. Forty-two States established controls over collecting rebates for single-source
    drugs administered by physicians as required by the DRA. The six remaining States and the District of
    Columbia did not establish controls over collecting these rebates. States lacked adequate assurance that
    all drug rebates due the States were properly recorded and/or collected. Additionally, CMS did not have
    reliable drug rebate billing and collection information to properly monitor the program. Nationwide
    Rollup Report for Medicaid Drug Rebate Collections. A-06-10-00011. August 2011. Web Summary.
    Full Text. See also Multistate Review of Medicaid Drug Rebate Programs. A-06-03-00048. July 2005.
    Web Summary. Full Text.
•   DIFFICULTY OBTAINING MANUFACTURER REBATES FOR PHYSICIAN-ADMINISTERED DRUGS. ALTHOUGH MOST STATES
    SELF-REPORTED THAT THEY MET OR EXCEEDED FEDERAL REQUIREMENTS TO COLLECT REBATES FOR CERTAIN PHYSICIAN-
    ADMINISTERED DRUGS, 29 OF THE 49 RESPONDING STATES REPORTED DIFFICULTIES WITH OBTAINING REBATES FROM
    MANUFACTURERS.  The States attributed the difficulty mainly to missing or potentially inaccurate drug code
    information that providers entered on claims or the absence of drug code information on claims. States'
    Collection of Medicaid Rebates for Physician-Administered Drugs. OEI-03-09-00410. June 2011.
    Web Summary. Full Text.
•   SYSTEMS LIMITATIONS IN INVOICING REBATES FOR MEDICAID COMPOUND DRUG EXPENDITURES. CALIFORNIA FAILED TO
    INVOICE MANUFACTURERS AND COLLECT AN ESTIMATED $26.7 MILLION IN REBATES FOR ELIGIBLE COMPOUND DRUG

4
 Patient Protection and Affordable Care Act of 2010, P.L. No. 11-148, as amended by the Health Care and
Education Reconciliation Act of 2010, P.L. No. 111-52. (Affordable Care Act or ACA)


March 2012                                                                                                   Page 4
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



      INGREDIENTS. Pharmacists create compound drugs by combining two or more prescription or
      nonprescription drug products and then repackaging them into a new form. California’s Rebate
      Accounting Information System was not designed to invoice rebates for compound drug ingredients, and
      its electronic claims for such expenditures did not comply with Federal requirements. Review of
      California's Invoicing of Rebates for Medicaid Compound Drug Expenditures-Electronic Claims.
      A-09-10-02006. May 2011. Web Summary. Full Text.


Manufacturers’ Rebates for Medicaid
Compared to Medicare Part D

•     MEDICAID’S HIGHER REBATES FOR BRAND-NAME DRUGS RESULTED IN LOWER NET COSTS COMPARED TO
      MEDICARE PART D. MEDICAID RECOUPED 45 PERCENT OF ITS DRUG SPENDING ON SELECTED BRAND-NAME DRUGS
      IN MANUFACTURER REBATES WHILE PART D SPONSORS RECOUPED 19 PERCENT. Although pharmacy reimbursement
      amounts under Medicaid and the Medicare Part D prescription drug benefit were similar for most
      selected brand-name drugs, Medicaid's net unit drug costs were much lower than Part D’s because
      Medicaid receives substantially higher manufacturer rebates for brand-name drugs. Manufacturer
      rebates for generic drugs under both programs were negligible. Unlike Medicaid, Part D sponsors (or
      contractors acting on their behalf) negotiate rebates with drug manufacturers without any statutory
      requirements on rebate amounts. In fact, the law establishing the Part D program expressly prohibited
      the Government from instituting a price structure for the reimbursement of covered Part D drugs. Higher
      Rebates for Brand-Name Drugs Result in Lower Costs for Medicaid Compared to Medicare Part D.
      OEI-03-10-00320. August 2011. Web Summary. Full Text.


State Claims for Federal Reimbursement

•     RECONCILIATION OF STATE EXPENDITURE REPORTS TO CLAIMS DATA. IN TWO OF FIVE STATES WE REVIEWED, MEDICAID
      EXPENDITURES THAT STATES REPORTED QUARTERLY TO CMS WERE NOT CORRECT OR WERE NOT ADEQUATELY SUPPORTED.
      State agencies claim their Medicaid expenditures on the Quarterly Medicaid Statements of Expenditures
      for the Medical Assistance Program (Form CMS-64), which they submit to CMS within 30 days after the
      end of each quarter. The form shows the disposition of Medicaid funds used to pay for medical and
      administrative expenditures for the quarter being reported and any prior-period adjustments. Each State
      must maintain an accounting system and supporting fiscal records to ensure that claims reported on the
      CMS-64 report are in accordance with applicable Federal requirements. We conducted reconciliation
      reviews as part of our oversight of increased Federal funding from the Recovery Act. 5 Reviews completed
      in FY 2011 follow.
      o   OKLAHOMA – (About $1 billion adequately supported; refund $2.1 million; claim a $5,000 credit;
          resolve $127,000 set aside for further analysis.) Review of the Quarterly Medicaid Statement of
          Expenditures for the Medical Assistance Program in Oklahoma. A-06-09-00097. July 2011.
          Web Summary. Full Text.

5
    Recovery Act, P.L. No. 111-5.


March 2012                                                                                                  Page 5
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    o   ARKANSAS – (Resolve $1.7 million set aside.) Review of Arkansas Medicaid Prescription Drug Claims for
        the Quarter Ending December 31, 2008. A-06-09-00093. July 2011. Web Summary. Full Text.
    o   NEW YORK STATE – (Expenditures adequately supported.) Review of the Quarterly Medicaid Statement
        of Expenditures for the Medical Assistance Program in New York State for the Quarter Ended
        September 30, 2009. A-02-10-01020. April 2011. Web Summary. Full Text.
    o   PUERTO RICO – (Expenditures adequately supported.) Review of the Quarterly Medicaid Statement of
        Expenditures for the Medical Assistance Program in Puerto Rico for the Quarter Ended September 30,
        2009. A-02-10-01038. April 2011. Web Summary. Full Text.
    o   INDIANA – (Expenditures adequately supported.) Review of the Quarterly Medicaid Statement of
        Expenditures for the Medical Assistance Program in Indiana for the Quarter Ending March 31, 2009.
        A-05-09-00091. December 2010. Web Summary. Full Text.
•   PROBLEMS WITH HOME- AND COMMUNITY-BASED SERVICES CLAIMS. OUR FINDINGS, WHICH VARIED BY STATE,
    REVEALED CLAIMS IN WHICH SERVICES WERE UNALLOWABLE; DOCUMENTATION WAS MISSING, INACCURATE, OR INADEQUATE;
    AND SOME BENEFICIARIES WERE NOT ELIGIBLE OR WERE NOT PROPERLY ASSESSED AND CERTIFIED TO REQUIRE THE DESIGNATED
    LEVEL OF CARE.  States may offer, under a waiver of statutory requirements, an array of home- and
    community-based services not otherwise furnished under the State's Medicaid plan that certain
    individuals need to avoid institutionalization. Services may include those that meet Federal regulations
    and are defined by the State and approved by CMS. One of the States we reviewed did not amend its
    cost allocation plan to identify administrative costs associated with the waiver program and nonwaiver
    activities or submit a methodology for allocating them. Other findings, which could impact beneficiary
    safety or quality of care, included that assessors were not always trained and certified, services were
    provided to beneficiaries who did not have completed and approved individual habilitation plans, or
    services were not in accordance with plans of care. The reviews we reported to Congress in FY 2011
    follow.
    o   NEW JERSEY – (Refund $903,000.) Review of Medicaid Payments for Services Provided Under New
        Jersey's Section 1915(c) Community Care Waiver by Elwyn New Jersey From January 1, 2005, Through
        December 31, 2007. A-02-09-01033. July 2011. Web Summary. Full Text.
    o   NEW YORK – (Refund $1.6 million; resolve $2.1 million set aside.) Review of Medicaid Payments for
        Services Provided Under New York's Section 1915(c) Traumatic Brain Injury Waiver at Belvedere of
        Albany, LLC, From January 1, 2005, Through December 31, 2007. A-02-09-01006. May 2011.
        Web Summary. Full Text.
    o   PENNSYLVANIA – (Refund $2.1 million plus $371,000; $25.8 million set aside for further analysis.)
        Review of Administrative Costs Claimed by Pennsylvania's Home and Community-Based Waiver for
        Individuals Aged 60 and Over. A-03-10-00202. June 2011. Web Summary. Full Text.
•   DOCUMENTATION, OTHER ERRORS IN PERSONAL CARE SERVICES CLAIMS (PCS). OUR FINDINGS, WHICH VARIED BY
    STATE, REVEALED CLAIMS FOR PCS THAT HAD INACCURATE OR MISSING DOCUMENTATION, DOCUMENTATION THAT DIFFERED
    SIGNIFICANTLY FROM BENEFICIARIES’ SERVICES NEEDS ASSESSMENTS, INACCURATE OR DUPLICATE PROVIDER BILLING,
    POTENTIALLY UNALLOWABLE COSTS, AND SERVICES BILLED DURING BENEFICIARIES’ INPATIENT HOSPITAL STAYS (QUESTIONABLE
    OVERLAP OF SERVICES). Such errors occurred because of inadequate prepayment and postpayment claim
    reviews. Other deficiencies were related to physicians’ orders; timesheets; attendant qualifications,




March 2012                                                                                                    Page 6
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    training, and background checks; and lack of nursing visits for attendant supervision. Such deficiencies
    could impact beneficiary safety and quality of care.
    o   NEBRASKA – (Refund $169,000; $4.5 million set aside for further analysis.) Nebraska Medicaid
        Payments for Personal Care Services. A-07-10-03152. June 2011. Web Summary. Full Text.
    o   WASHINGTON STATE – (Refund $19.4 million; $30.3 million set aside for further analysis.) Review of
        Medicaid Personal Care Services Claimed by Washington State. A-09-09-00030. May 2011.
        Web Summary. Full Text.
    o   NORTH CAROLINA – (Refund $41.7 million.) Review of Medicaid Personal Care Services Claims
        Submitted by Providers in North Carolina. A-04-10-04003. June 2011. Web Summary. Full Text.
    o   NORTH CAROLINA – (Refund $1.3 million. Based on one provider.) Review of Federal Reimbursement
        Claimed by North Carolina for Medicaid Personal Care Services Claims Submitted by Shipman Family
        Home Care, Inc. A-04-09-04041. February 2011. Web Summary. Full Text.
    o   DISTRICT OF COLUMBIA – (Refund $1.1 million; $808,000 set aside for further analysis.) Review of
        Personal Care Services Provided by Tri-State Home Health and Equipment Services, Inc., in the District
        of Columbia. A-03-08-00207. December 2010. Web Summary. Full Text.
    o   NEW YORK STATE – (Refund $100.3 million.) Review of Medicaid Personal Care Services Claims Made by
        Providers in New York State. A-02-08-01005. October 2010. Web Summary. Full Text. SEE ALSO NEW
        YORK CITY – (Refund $275.3 million.) Review of Medicaid Personal Care Services Claims Made by
        Providers in New York City. A-02-07-01054. June 2009. Web Summary. Full Text.
    o   TEN-STATE REVIEW – EIGHTEEN PERCENT OF PCS CLAIMS WERE INAPPROPRIATE BECAUSE ATTENDANTS’ QUALIFICATIONS
        WERE UNDOCUMENTED. Medicaid paid an estimated $724 million for the deficient claims. CMS will
        review the claims and take appropriate action. The qualifications most often undocumented were
        background checks, age, and education. We estimated that Medicaid paid an additional 2 percent of
        claims inappropriately because the respondents had no record of providing services to the
        beneficiaries. Inappropriate Claims for Medicaid Personal Care Services. OEI-07-08-00430.
        December, 2010. Web Summary. Full Text.
•   INELIGIBLE CLAIMS FOR ENHANCED FEDERAL SHARE OF FAMILY PLANNING SERVICES. OUR FINDINGS, WHICH VARIED BY
    STATE, REVEALED CLAIMS THAT WERE NOT ELIGIBLE FOR FEDERAL REIMBURSEMENT AT THE 90-PERCENT ENHANCED RATE. The
    errors occurred because in some cases Medicaid Management Information Systems (MMIS) did not
    identify which claims were eligible for the enhanced rate; deficient claims related to child delivery,
    newborn services, hysterectomies, and other costs were not eligible for the enhanced rate. Reports of
    reviews completed in this semiannual period follow.
    o   OREGON – (Refund $1.5 million.) Review of Medicaid Family Planning Services Claimed Under the
        Oregon Health Plan During the Period October 1, 2006, Through September 30, 2009.
        A-09-10-02043. June 2011. Web Summary. Full Text.
    o   WASHINGTON STATE – (Refund $8.5 million.) Review of Family Planning Services Claimed by Washington
        State During the Period October 1, 2005, Through September 30, 2008. A-09-09-00049. February
        2011. Web Summary. Full Text.
    o   KANSAS – (Refund $2.4 million.) Review of Child Delivery Claims and Newborn Claims Included in the
        Kansas Medicaid Family Planning Program. A-07-10-04156. May 2011. Web Summary. Full Text.


March 2012                                                                                               Page 7
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    o   OKLAHOMA – (Refund $3.4 million.) Review of Medicaid Hysterectomy Expenditures Claimed as Family
        Planning in Oklahoma for Calendar Years 2005 to 2009. A-06-10-00047. May 2011. Web Summary.
        Full Text.
    o   COLORADO – (Refund $2 million.) Review of Additional Claims for Sterilization Procedures in the
        Colorado Medicaid Family Planning Program. A-07-11-01096. May 2011. Web Summary. Full Text.
•   REHABILITATIVE SERVICES CLAIMS DEFICIENT. REVIEWS OF CLAIMS SUBMITTED BY NEW YORK AND MARYLAND REVEALED
    DEFICIENCIES IN DOCUMENTATION AND STATE PLAN DEFINITIONS.

    o   NEW YORK STATE – (Refund $207.6 million.) Federal Medicaid reimbursement was improperly claimed
        for optional rehabilitation services by community residence providers that did not comply with
        Federal and State requirements. Deficiencies pertained to physicians’ authorizations or
        reauthorizations for services, services of at least 15 minutes, and/or service plans reviewed and
        signed by qualified mental health staff members. The community residence rehabilitation providers
        included group homes and apartments providing services under a program administered by New
        York’s Office of Mental Health. Review of New York’s Medicaid Rehabilitative Services Claims
        Submitted by Community Residence Providers. A-02-08-01006. December 2010. Web Summary.
        Full Text.
    o   MARYLAND – We were unable to determine whether the documentation Maryland submitted as
        support for sampled claims was sufficient because its State plan was unclear about certain key
        definitions and requirements. Maryland includes residential rehabilitation services in its early and
        periodic screening, diagnostic, and treatment program for children. Specifically, the State plan, which
        should be amended, was unclear about the definition of a residential rehabilitative service and the
        requirements for documenting claims for such services. Review of Medicaid Residential
        Rehabilitation Services for Children in Maryland. A-03-08-00209. August 2011. Web Summary.
        Full Text.
•   IMPROVING SCHOOL-BASED SERVICES CLAIMS. WEST VIRGINIA – (Refund $22.8 million; determine unallowable
    costs for 2004 to present.) The Federal Government overpaid its share of West Virginia’s school-based
    services because the State included costs in the calculation of its rates that were not included in the
    reimbursement methodology described in the approved State plan. The errors occurred because the
    State did not provide adequate oversight of its consulting firm during the rate calculation process.
    Review of Medicaid Reimbursement Rates for School-Based Services in West Virginia. A-03-05-00203.
    April 2011. Web Summary. Full Text.
•   ERRORS IN STATE’S ALIEN EMERGENCY MEDICAL PROGRAM CLAIMS. WASHINGTON STATE – (Refund $763,000;
    other amounts to be determined.) Washington State improperly claimed Federal reimbursement for
    nursing home services provided to nonqualified alien beneficiaries without prior approval from a State
    medical consultant or to beneficiaries who were misclassified and not eligible for the State’s Alien
    Emergency Medical program. The State also improperly claimed Federal reimbursement for various
    medical services provided to treat conditions that were not authorized. Other questionable claims were
    for prescription drugs and dental services that the State agency could not determine were related to
    treating emergency medical conditions. A nonqualified alien is an individual who is not a citizen or
    national of the United States and is not in a satisfactory immigration status. Federal Medicaid funding is
    available to States for medical services provided to nonqualified aliens only when those services are




March 2012                                                                                               Page 8
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    necessary to treat an emergency medical condition. Review of Washington State’s Medicaid Claims for
    Nonqualified Aliens. A-09-09-00039. December 2010. Web Summary. Full Text.
•   CLAIMS FOR NONCOMPLIANT STATE-OWNED PSYCHIATRIC HOSPITAL. ILLINOIS – (Refund $82.9 million;
    $12.6 million set aside for further analysis.) Illinois improperly claimed Federal reimbursement for
    payments it made to a State-owned psychiatric hospital that failed to demonstrate compliance with
    special Medicare Conditions of Participation (CoP). The State agency did not believe that such
    demonstration was necessary. Review of Select Medicaid Inpatient Psychiatric Hospital Service
    Requirements for One Illinois State-Owned Psychiatric Hospital During the Period January 1, 2000,
    Through December 31, 2009. A-05-10-00046. August 2011. Web Summary. Full Text.
•   MEDICAID EXPENDITURES FOR MEDICARE PART A AND PART B PREMIUMS. MISSOURI – (Refund $1.5 million.)
    Missouri improperly claimed Federal reimbursement for the Federal share of Medicare Part B premiums
    that the State paid under the buy-in program. The errors occurred because the State made calculation
    and duplication errors. Federal law allows States to pay Medicare premiums on behalf of certain
    individuals who are entitled to both Medicare and some form of Medicaid benefits. The State can then
    claim the Federal share of such premium expenditures under Medicaid. This provision, called buy-in, has
    the effect of transferring part of the medical costs for eligible individuals from the federally and State-
    funded Medicaid program to the federally financed Medicare program. The State’s claims for the Federal
    share of its Part A premium payments were claimed correctly. Review of Medicaid Expenditures for
    Medicare Part A and Part B Premiums in Missouri. A-07-10-03158. July, 2011. Web Summary. Full Text.
•   UNALLOWABLE MMIS EXPENDITURES. OREGON – (Refund $566,000; $1.7 million set aside for further
    analysis.) Oregon improperly claimed Federal Reimbursement of certain expenditures reported as being
    related to its MMIS, including employee salaries and fringe benefits, contractor and postage expenditures
    claimed at incorrect Federal reimbursement rates, and unallowable contractor and employee
    expenditures. We set aside for further analysis and resolution additional contractor expenditures and
    employee salaries and fringe benefits that may have been unallowable. Of the $31 million in
    expenditures we reviewed, Oregon claimed $27.4 million correctly. Audit of Oregon's Medicaid
    Management Information System Expenditures for the Period October 1, 2007, Through September 30,
    2009. A-09-10-02017. August, 2011. Web Summary. Full Text.
•   NON-MEDICAID ADMINISTRATIVE COSTS IMPROPERLY CLAIMED. PENNSYLVANIA improperly claimed Federal
    Medicaid reimbursement for administrative costs not associated with Medicaid operations.
    o   PENNSYLVANIA – (Refund $1.7 million; resolve additional amounts.) Pennsylvania improperly claimed
        Federal Medicaid reimbursement for unauthorized administrative costs for the Direct Care Worker
        Initiative, a recruitment and retention program of the State’s Department of Aging. The costs were
        not incurred to operate the Medicaid program, and CMS specifically prohibits claiming them as
        administrative costs. Local agencies operating the initiative reported that the funds were spent on
        bonuses, training, and recognition events. Review of Medicaid Administrative Costs Claimed for the
        Pennsylvania Department of Aging's Direct Care Worker Initiative. A-03-10-00206. July 2011.
        Web Summary. Full Text.
    o   PENNSYLVANIA – (Refund $1.2 million; resolve additional amounts.) Pennsylvania improperly claimed
        Federal Medicaid Reimbursement for administrative costs of the Healthy Steps for Older Adults
        (Healthy Steps) program. The claimed costs were for the Department of Aging’s payments for
        services to help older adults remain active and were not for the administration of the Medicaid


March 2012                                                                                                 Page 9
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



        program. Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department of
        Aging's Healthy Steps Program. A-03-10-00205. July 2011. Web Summary. Full Text.


Other Payment-Related Reviews

•   SERVICES PROVIDED IN AN ADULT DAY HEALTH SETTING. FOR THE 12 STATE MEDICAID PROGRAMS THAT ALLOW NURSING-
    AND THERAPY-FOCUSED ADULT DAY HEALTH SERVICES, APPROXIMATELY 43 PERCENT OF THERAPY SERVICES WERE PROVIDED BY
    STAFF WHO LACKED REQUIRED SUPERVISION. On 34 percent of service days, meals and/or snacks were the only
    documented services provided. In some cases, documentation lacked appropriate physician orders or
    was inconsistent with plans of care. Within broad Federal Medicaid requirements, individual States
    establish the specific requirements that must be met for Medicaid reimbursement of adult day health
    services. Medicaid Services Provided in an Adult Day Health Setting. OEI-09-07-00500. July 2011.
    Web Summary. Full Text.
•   AFTER-HOURS SERVICES CODES GENERALLY COMPLIANT. IN GENERAL, WE DID NOT FIND A LARGE PROBLEM WITH
    INAPPROPRIATELY PAID AFTER-HOURS ADD-ON CODES. After-hours add-on codes compensate providers for the
    additional costs associated with providing services outside posted or normal business hours. Our findings
    included that only three States—North Carolina, Kentucky, and Massachusetts—made 77 percent of the
    $8.1 million total in payments for after-hours add-on codes. Each State Medicaid program decides
    whether and under what circumstances providers may be reimbursed for after-hours services. Medicaid
    Payments for After-Hours Services. OEI-07-11-00050. May 2011. Web Summary. Full Text.
•   MEDICAID HOSPITAL OUTLIER PAYMENTS FOLLOWUP REVIEW. EIGHT STATE AGENCIES WE REVIEWED DID NOT CALCULATE
    MEDICAID INPATIENT HOSPITAL COST OUTLIER PAYMENTS IN A WAY THAT WOULD EFFECTIVELY LIMIT PAYMENTS TO
    EXTRAORDINARILY HIGH-COST CASES. If the States had used the most recent cost reports to calculate the cost-
    to-charge ratios for the 27 hospitals we reviewed, those States could have, between FYs 2004 and 2006,
    more effectively limited payments to extraordinarily high-cost cases, thereby reducing those Medicaid
    outlier payments by about $320 million. To protect hospitals against large financial losses from
    extraordinarily high-cost cases, States may supplement base payments with an additional “outlier”
    payment. Medicaid outlier payments are calculated using formulas that vary by State. The States we
    reviewed used outdated cost-to-charge ratios and did not reconcile Medicaid outlier payments upon
    settlement of cost reports. The review is a followup to similar audits we conducted in 2004. Medicaid
    Hospital Outlier Payment Followup for Fiscal Years 2004 Through 2006. A-07-10-04160. July 2011.
    Web Summary. Full Text.
•   INDIANA’S REPORTING OF FUND RECOVERIES AND INTEREST INADEQUATE. (Refund $38.9 million and $39,000
    interest.) Indiana did not report Medicaid overpayments and the interest it collected on overpayment
    recoveries in accordance with Federal requirements. Federal law requires States to refund the Federal
    share of Medicaid overpayments. In addition, Federal regulations require States to refund interest
    earned on overpayment recoveries before requesting additional Federal funds. Review of Indiana’s
    Reporting Fund Recoveries for Federal and State Medicaid Programs on the Form CMS-64 for Federal
    Fiscal Years 2000 Through 2008. A-05-09-00021. October 2010. Web Summary. Full Text.




March 2012                                                                                               Page 10
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



•   NONCOMPLIANCE WITH RECOVERY ACT REQUIREMENTS. REVIEWS OF THREE STATES REVEALED NONCOMPLIANCE OR
    POTENTIAL NONCOMPLIANCE WITH PROMPT-PAY AND OTHER FEDERAL REQUIREMENTS FOR RECEIVING INCREASED FUNDING
    PURSUANT TO THE RECOVERY ACT.

    o   ILLINOIS – (REFUND $2.6 MILLION.) Illinois improperly received $2.6 million in increased Federal
        reimbursements from February 18, 2009, through September 30, 2009, because it did not always
        comply with prompt-pay requirements. The State agency’s initial prompt-pay calculations included
        several inaccuracies related to the 30/90-day prompt-pay requirements and the inclusion in, or
        exclusion from, of certain claims in the daily prompt-pay compliance calculation. The State also failed
        to adjust the Form CMS-64 for the quarter ended June 30, 2009, for expenditures not eligible for the
        increased Federal share. Review of Illinois’ Prompt Pay Compliance Under the American Recovery and
        Reinvestment Act of 2009 From January 1, 2009, Through September 30, 2009. A-05-09-00083.
        December 2010. Web Summary. Full Text.
    o   NEW HAMPSHIRE – We could not determine whether New Hampshire fully complied with prompt-pay
        requirements for receiving the increased Federal medical assistance percentage because the State
        did not always appropriately record claims’ receipt dates. Review of American Recovery and
        Reinvestment Act of 2009 Medicaid Prompt Pay Requirements in New Hampshire. A-01-10-00009.
        December 2010. Web Summary. Full Text.
    o   ALABAMA – Alabama complied with the Recovery Act requirement that amounts attributable to
        increased funding not be deposited or credited to any reserve (rainy day) fund. However, as an
        additional matter, the State drew down about $2.4 million in Federal Recovery Act funds that
        exceeded the amount of the Recovery Act expenditures reported on its Form CMS-64 reports for the
        audit period. The State agency did not provide an explanation for the excessive drawdown of
        Recovery Act funds, and we were unable to determine whether the excessive drawdowns were used
        for allowable Recovery Act purposes. Review of Alabama’s Compliance With the Reserve or Rainy
        Day Fund Requirement for the Increased Federal Medical Assistance Percentage Under the American
        Recovery and Reinvestment Act. A-04-10-03058. January 2011. Web Summary. Full Text.


States’ Program Management and Oversight

•   FY 2008 PAYMENT ERROR RATE MEASUREMENT PROGRAM DATA FLAWED. STATES’ MEDICAID FEE-FOR-SERVICE AND
    MANAGED CARE UNIVERSES FOR THE FY 2008 PAYMENT ERROR RATE MEASUREMENT PROGRAM (PERM) WERE OR MAY
    HAVE BEEN INCOMPLETE OR INACCURATE.
                                      AS A RESULT, CMS COULD NOT BE ASSURED THAT THE PERM PROGRAM PRODUCED
    A REASONABLE ESTIMATE OF IMPROPER PAYMENTS FOR THAT YEAR.
                                                            CMS developed the PERM program to comply
    with Federal requirements for measuring improper Medicaid and Children’s Health Insurance Program
    (CHIP) payments. Oversight and Evaluation of the Fiscal Year 2008 Payment Error Rate Measurement
    Program. A-06-09-00037. October, 2010. Web Summary. Full Text.
•   OVERSIGHT OF MEDICAID ELECTRONIC HEALTH RECORDS INCENTIVE PAYMENTS LIMITED. STATES’ ABILITY TO ENSURE
    THE INTEGRITY OF MEDICAID ELECTRONIC HEALTH RECORD (EHR) INCENTIVE PAYMENTS IS LIMITED. States must verify
    that health care practitioners and hospitals are eligible for incentive payments. Although the States we
    reviewed said they plan to verify at least half of eligibility requirements prior to making EHR incentive
    payments, we found that depending on the requirement, States may have none, some, or all of the data



March 2012                                                                                              Page 11
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    they need prior to making payments. The lack of data limits both the number of eligibility requirements
    that States plan to verify prior to payment and the completeness of those verifications. All the States we
    reviewed said they plan to audit eligibility requirements after payment. Between 2011 and 2019, the
    Federal Government will spend an estimated $13.4 billion for Medicaid EHR programs. Early Review of
    States' Planned Medicaid Electronic Health Record Incentive Program Oversight. OEI-05-10-00080.
    July 2011. Web Summary. Full Text.
•   REFUNDS FOR FLORIDA’S CHILDREN'S HEALTH INSURANCE PROGRAM (CHIP) WERE UNDERPAID. (Credit
    $2 million Federal share of refunds.) Because insurers incorrectly reported premium payments, Florida
    did not receive all refunds due in connection with the CHIP Program. The underpaid refunds occurred
    primarily because Florida and its agent did not have policies and procedures requiring personnel to
    review insurers’ reports and reconcile them to supporting records. Review of Florida's Children's Health
    Insurance Program Experience Adjustment and Refund Submission Reports.
    A-04-10-06123. June 2011. Web Summary. Full Text.


FY 2011
Medicaid-Related Legal
and Investigative Outcomes

Education and Outreach

INTRODUCING THE ROADMAP FOR NEW PHYSICIANS. IN RESPONSE TO AN OIG SURVEY, ALMOST HALF OF MEDICAL SCHOOLS
AND MORE THAN TWO-THIRDS OF INSTITUTIONS OFFERING RESIDENCY AND FELLOWSHIP PROGRAMS REPORTED INSTRUCTING
PARTICIPANTS ABOUT COMPLIANCE WITH MEDICARE AND MEDICAID FRAUD AND ABUSE LAWS. Because nearly all who
responded to our survey were interested in having OIG provide instructional materials, we developed a guide
called A Roadmap for New Physicians: Avoiding Medicare and Medicaid Fraud and Abuse (Roadmap). The
package also includes a slide presentation and speaker notes. The Roadmap summarizes the five main
Federal fraud and abuse laws (the False Claims Act (FCA), the anti-kickback statute, the physician self-referral
law (Stark Law), OIG’ s exclusion authorities, and civil monetary penalties authorities). It instructs physicians
how to uphold these laws in their relationships with payers, such as Medicare and Medicaid; vendors, such as
drug, biologic, and medical device companies; and other providers, such as hospitals, nursing homes, and
physician colleagues. The survey and Roadmap are available on our Web site at http://www.oig.hhs.gov.


Criminal and Civil Enforcement

PRESCRIPTION DRUGS, PHARMACIES, AND MANUFACTURERS
•   MISSOURI – Cardinal Health, Inc., a pharmaceutical distributor, agreed to pay the United States $8 million
    to resolve a lawsuit filed by two individuals, a former pharmacy owner and pharmacy consultant,
    pursuant to the qui tam, or whistleblower, provisions of the FCA. The pharmacy owner alleged that
    Cardinal Health paid him $440,000 in exchange for an agreement that he purchase prescription drugs for



March 2012                                                                                                Page 12
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    his pharmacies from Cardinal Health. The inducement allegedly constituted an up-front payment, or
    “prebate,” in violation of the Federal health care anti-kickback statute; thereby causing the pharmacies to
    submit potentially tainted or false claims to Medicare and Medicaid.
•   MICHIGAN – eTEL-Rx, Inc., a pharmacy that provides drugs to nursing home facilities throughout the State,
    entered into a settlement agreement that includes restitution in the amount of $650,000 to resolve its
    alleged liability under the civil FCA. Between January 1999 and December 2007, eTEL-Rx allegedly billed
    Medicaid directly for the medications and nutritional supplements of terminally ill patients that should
    have been billed to the appropriate hospice providers. In addition, eTEL-Rx accepted the return of
    unused drugs paid for by Medicaid without crediting Medicaid for the returns. The pharmacy
    subsequently redispensed the returned drugs, resulting in Medicaid's paying eTEL-Rx again for the drugs
    already reimbursed by Medicaid. As part of the settlement, eTEL-Rx entered into a corporate integrity
    agreement (CIA) with OIG.
•   OHIO – James Matheny, Jr., and a Walgreens Pharmacy Technician, Jacob McCoy, were sentenced to 27
    months and 12 months and 1 day of incarceration, respectively, and ordered to pay $6,131, jointly and
    severally, for their roles in a scheme to obtain controlled substances through using stolen identities and
    fraudulent prescriptions. Specifically, McCoy and Matheny obtained blank prescription pads in the name
    of Columbus Pain Management, a fictitious medical practice, and then wrote prescriptions for Class 2
    controlled substances to include OxyContin and Percocet. McCoy also used his pharmacy’s computer
    system to obtain the identities of customers who possessed insurance benefits through Medicare,
    Medicaid, and Medicaid managed care entities. McCoy and Matheny then used this information to
    obtain the controlled substances at reduced prices. Matheny subsequently sold the prescription drugs on
    the street. Between March 2009 and June 2009, McCoy and Matheny diverted approximately 4,000 units
    of the prescription drugs.
•   GEORGIA – Allergan, Inc., and Allergan USA, Inc. (collectively, Allergan), agreed to pay $600 million and
    enter a global criminal, civil, and administrative settlement in connection with the improper marketing
    and promotion of the drug Botox. Under the civil settlement agreement, Allergan agreed to pay the
    Federal Government $225 million to resolve its FCA liability. Botox is a neurotoxin and a biologic that was
    approved by the Food and Drug Administration (FDA) for several uses, including blepharospasm
    (uncontrollable closing of the eyelids); cervical dystonia (muscle spasm and pain in the neck and
    shoulder); and temporary improvement in the appearance of moderate to severe glabellar lines (facial
    age wrinkles) in adults up to age 65. The settlement resolves allegations that Allergan promoted the sale
    and use of Botox for a variety of conditions, such as headache, pain, spasticity, and overactive bladder,
    which were uses not approved by FDA and were therefore not covered by the State Medicaid programs.
    The settlement also resolves additional allegations of misleading physicians, causing miscoding, and
    offering illegal remuneration to health care professionals. Allergan entered into a comprehensive 5-year
    CIA with OIG, which included several provisions intended to increase transparency about Allergan’s
    promotional practices and which required Allergan to establish internal monitoring programs to review
    promotional activities.


HOSPITALS
•   CONNECTICUT – Masonicare Health Center (Masonicare) agreed to pay $447,776 to resolve its liability for
    allegations under the FCA. The settlement agreement resolved allegations that Masonicare improperly



March 2012                                                                                              Page 13
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    overcharged Medicare and Medicaid from January 1, 2001, through May 31, 2010, for Lupron injections,
    which are commonly used to treat prostate cancer in men and manage endometriosis in women. Using
    the Healthcare Common Procedure Coding System (HCPCS), Masonicare allegedly billed Medicare and
    Medicaid for Lupron injections provided to its male patients under an HCPCS code designated for female
    beneficiaries, which is reimbursed at double the rate.
•   OKLAHOMA – AHS Hillcrest Medical Center, LLC; AHS Tulsa Regional Medical Center, LLC; Ardent Health
    Services, LLC; and Ardent Medical Services, Inc. (collectively the Ardent Entities), entered into an FCA
    settlement agreement and agreed to pay $3.85 million to resolve allegations that between January 2003
    and December 2009, the Ardent Entities caused false claims to be submitted to Oklahoma Medicaid.
    Specifically, the Children and Adolescent Behavioral Health Services Unit of the Tulsa Regional Medical
    Center (renamed Oklahoma State University Medical Center in 2006) allegedly failed to provide inpatient
    psychiatric services to patients under the age of 21 in the intervals of time required by State regulations.
     Instead, shorter therapy sessions were allegedly provided and documented as if they had been
    appropriately provided. In connection with this settlement, AHS Hillcrest Medical Center, which assumed
    ownership and operation of the Unit in 2009, entered into a 5-year CIA. The obligations include oversight
    by a board of directors and an Independent Review Organization’s review of the Unit’s claims and quality
    control systems.
•   INDIANA – St. John’ s Health System (St. John’ s) agreed to pay the United States $318,364 to resolve its
    liability under the FCA for submitting fraudulent claims to Medicare and Medicaid for psychotherapy
    services. The settlement resolves allegations that from January 1, 2005, through December 31, 2008, St.
    John’ s billed for multiple units of psychotherapy services under the code for group medical
    psychotherapy. The Government contends that the services provided were not psychotherapy sessions
    but were group counseling meetings, including Alcoholics Anonymous meetings conducted by unqualified
    professionals. The settlement also resolved allegations that St. John’ s billed for services provided by
    lower level practitioners without using modifier codes to indicate who provided the services, resulting in
    25-percent higher payments under Medicare and Medicaid.


CLINICS
NORTH CAROLINA – Dr. Michael Nunn, d/b/a Community Wellness Center, was ordered to pay restitution in
the amount of $297,215 and his practice was ordered to pay a fine of $700,000 for health care fraud and
money laundering. The court order also barred Nunn from engaging in business with HHS, the Department of
Veterans Affairs (VA), and any other agency impacted by his offense. Between May 2003 and December
2004, Nunn operated three clinics in New Bern, Winterville, and Morehead City, North Carolina. Medicare,
Medicaid, and VA patients frequently visited his clinics to obtain prescriptions for controlled substances. As a
condition for receiving the prescriptions, Nunn required the patients to undergo various forms of physical and
psychological therapy that were performed by unlicensed and unqualified personnel or provided by qualified
practitioners without proper supervision. The therapy was subsequently billed to Medicare, Medicaid, and
VA.
VERMONT – Dartmouth Hitchcock Clinic, Mary Hitchcock Memorial Hospital, and related entities (collectively
Dartmouth), agreed to pay $2.2 million to resolve its liability under the FCA for allegedly submitting improper
claims to Medicare, Medicaid, TRICARE, and VA. Between February 1, 2001, and September 30, 2007,
Dartmouth’s Anesthesiology Department (AD) allegedly submitted improper claims for services not



March 2012                                                                                               Page 14
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



supervised by attending physicians in the AD’s Pain Clinic, submitted improper claims for services not
supervised by attending physicians related to bedside procedures, and submitted improper claims for time-
based billings in the AD’s Critical Care Unit. Pursuant to Federal regulations and related guidelines, physicians
are allowed to bill for certain services provided by residents, but only if those services are performed while a
physician is present and the medical record documents physician presence. In addition, Dartmouth allegedly
submitted improper supervision and interpretation claims for services provided by its Radiology Department.
 These claims were improper because they did not have sufficient medical record documentation to support
the supervision component of these claims.


HOME HEALTH SERVICES
•   NEW JERSEY – Maxim Healthcare Services (Maxim) agreed to pay $121 million plus interest over 8 years
    and enter into a CIA to resolve its liability under the FCA. In addition, Maxim paid $20 million in criminal
    fines. The settlement resolves allegations that between 1998 and 2009, Maxim, one of the country’s
    largest home health care agencies, filed false claims with State Medicaid programs and VA for services
    that were not provided, were not sufficiently documented to show that they had been provided, or were
    delivered from unlicensed offices.
•   MISSISSIPPI – Telandra Jones and Theddis Pearson, owners of Statewide Physical Medicine (Statewide),
    were each sentenced to 120 months of incarceration and ordered to pay $18 million in restitution, jointly
    and severally, for making false statements relating to a health care matter, theft of Government funds,
    and conspiracy to commit money laundering. Between 2001 and 2004, Statewide submitted false claims
    for in-home physical therapy and physical medicine services to Medicare and Medicaid falsely purporting
    that the services had been rendered by a physician or a qualified employee under the physician’ s direct
    supervision. Statewide also inflated the time billed by claiming that beneficiaries received as many as 10
    hours of therapy per session.


SKILLED NURSING FACILITY
WEST VIRGINIA – Genesis Rehabilitation Services (GRS), an affiliate of Genesis HealthCare LLC, agreed to pay
$1.5 million to resolve its liability under the FCA for allegedly submitting claims to Medicare and Medicaid for
services provided by an unlicensed speech therapist. Between October 2006 and June 2010, GRS allegedly
employed an unlicensed speech therapist, who provided forged licenses and documentation to GRS to
maintain her employment. GRS failed to verify the documentation. As a result, GRS routinely submitted
claims to Medicare and Medicaid for services for licensed speech therapy services that were provided by an
unlicensed therapist.


TRANSPORTATION FRAUD
•   NORTH CAROLINA – Dr. Janet Johnson-Hunter was sentenced to 28 months' incarceration and ordered to
    pay restitution to Medicare and Medicaid in the amount of $428,924 and $46,165, respectively. Johnson-
    Hunter and her husband, also a physician, owned Coastline Care, Inc. (CCI), an ambulance company
    based in Magnolia, North Carolina. Between January 2002 and August 2005, CCI, under Johnson-Hunter’s
    direction, routinely conducted unnecessary transportation of patients to and from dialysis centers by
    ambulance that should have been conducted by other means. Johnson-Hunter further instructed



March 2012                                                                                                Page 15
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    emergency medical technicians to omit the true condition of these patients from the ambulance call
    reports when she knew their conditions would not meet the Medicare and Medicaid reimbursement
    requirements.
•   TEXAS – Claudette Read and Robert Earl Read, owners of Priority One EMS (Priority One), were
    sentenced to 108 months of incarceration and ordered to pay $1.7 million in restitution, jointly and
    severally, for submitting false claims to Medicare and Medicaid. Priority One was an ambulance transport
    business. Between January 2004 and November 2007, the Reads submitted, and instructed others to
    submit, claims to Medicare and Medicaid to obtain reimbursements for transporting dialysis patients who
    did not meet the criteria for ambulance transportation. The Reads instructed employees on what
    information to include in the “reason for transport” section of the emergency medical service run sheets
    to ensure that the transports qualified for reimbursement by Medicare and Medicaid. The Reads also
    submitted claims for ambulance transportation to and from dialysis that falsely represented that the
    patients were transported individually when, in fact, multiple patients had been transported
    simultaneously in one ambulance. This was a joint investigation with the Texas Medicaid Fraud Control
    Unit (MFCU).
•   TEXAS – The City of Dallas agreed to pay $2.47 million and enter a 3-year CIA to resolve its liability under
    the FCA related to allegations that it and ambulance billing company Southwest General Services of
    Dallas, LLC, improperly billed and obtained reimbursements from Medicare and Texas Medicaid for
    improperly coded ambulance transports. The transports were provided by Dallas emergency
    management services between January 2006 and May 2010. OIG alleged that Dallas submitted false
    claims to Federal programs that were improperly coded as advanced life support when, in fact, no such
    services were rendered and the patient did not require an advanced life support transport.


Oversight of and Joint Investigations With
Medicaid Fraud Control Units

Under a delegation from the Secretary, OIG oversees and distributes funding to 50 Medicaid Fraud Control
Units (MFCUs, which investigate and prosecute Medicaid provider fraud and patient abuse and neglect. As
part of its oversight responsibility, OIG ensures that the MFCUs are operating effectively and operating in a
manner consistent with legal requirements, including those in the Social Security Act and in Federal
regulations. OIG’s Web site provides information about MFCUS, including common characteristics,
regulations and statutes, performance standards, policy transmittals, expenditures and statistics, annual
reports, and contact information.
OIG and State MFCUs also work as law enforcement partners and frequently work joint investigations. The
following are examples of FY 2011 outcomes from cases jointly investigated by OIG and MFCUs.
•   PENNSYLVANIA – Ronald Bailey, Ed.D., a behavioral specialist consultant, was sentenced to 18 months of
    incarceration and ordered to pay $164,640 in restitution for health care fraud. Bailey was employed by
    the Chester County Regional Educational Services, Inc. (CCRES), which contracted with the Chester
    County Intermediate Unit (CCIU). During that same time, Bailey was also employed with an organization
    called Devereux. While providing behavioral services to Devereux and CCIU, Bailey routinely prepared
    and submitted invoices that overstated the amount of time he spent with clients. Bailey’s scheme



March 2012                                                                                                Page 16
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    included forging signatures of parents of Medicaid beneficiaries on encounter forms to appear as though
    he had spent the number of hours with the clients as listed on the forms. Bailey also prepared and
    submitted separate invoices to both Devereux and CCIU which, on many occasions, reflected that he was
    at two different locations at the exact same time seeing different Medicaid beneficiaries. Relying on the
    fraudulent invoices submitted by Bailey, CCIU, through CCRES, and Devereux issued check payments to
    Bailey for the claimed services with funds issued by Medicaid. This was a joint investigation with the
    Pennsylvania MFCU.
•   CONNECTICUT – Dr. Mark W. Izard and his corporation, Mark W. Izard, M.D., P.C., agreed to pay
    $2.2 million to resolve Izard’s liability under the FCA for allegedly submitting improper claims to Medicaid
    and Medicare. Between July 2004 and April 2009, Izard allegedly billed for services provided to patients
    at nursing homes when, in fact, the patients were in the hospital on the alleged dates of services. In
    addition, Izard and his professional corporation allegedly submitted claims for attending physician
    services provided to hospital inpatients when the medical records did not support CMS’s physical
    presence requirements for such claims. Izard allegedly billed for services that, according to the medical
    notes in the patients’ charts, were performed by advanced-practice registered nurses or Hartford Hospital
    medical residents. Allegedly, it was Izard’s regular practice to countersign the medical notes and not
    include his own note reflecting services he allegedly performed as the attending physician. This was a
    joint investigation with the FBI and the MFCU of Connecticut.
•   MASSACHUSETTS – Aloysius Nsonwu, owner of Egleston Square Pharmacy (Egleston), was sentenced in
    U.S. District Court to 9 months of time served and ordered to pay $101,520 in restitution to Medicare and
    $46,278 to Medicaid. In Massachusetts State Court, Nsonwu was sentenced to 4 years and 1 day in State
    prison, to be followed by 5 years of probation. He was also ordered to pay $555,502 in restitution to
    Medicaid. Nsonwu’s scheme included paying customers to bring their Medicare Part D and Medicaid
    cards to the pharmacy so that he could submit claims to CMS in their names. Nsonwu billed for
    prescription and refills of HIV/AIDS medications without physically dispensing the medication to the
    individuals. Many of the individuals whose Medicare and Medicaid cards were used to improperly submit
    bills were not, in fact, HIV positive. Nsonwu further used the identity of a licensed practicing physician
    without his knowledge to forge prescriptions for the medications. Nsonwu additionally paid cash to
    Medicaid beneficiaries in exchange for legitimate prescriptions. This was a joint investigation with the
    Medicaid Fraud Division of the Massachusetts Attorney General’s Office and the Massachusetts State
    Police.
•   MICHIGAN – Specialized Pharmacy Services (Specialized) agreed to pay $11.6 million and enter into a
    settlement agreement with the State of Michigan Attorney General’ s Office to settle liability under the
    FCA. The settlement resolves allegations that from 2002 to 2009, Specialized charged Medicaid a greater
    amount for prescription medications than it did private insurance companies by providing nursing homes
    the services of their consultant pharmacists at a rate well below market price. Under Michigan law, a
    pharmacy cannot bill Medicaid more than it customarily accepts from a private health insurer for
    prescription medications. This case was jointly investigated with the Federal Bureau of Investigation (FBI)
    and the Michigan MFCU.
•   TEXAS – Muhammad Usman, owner of Royal Ambulance Service, Inc. (Royal Ambulance), and First
    Choice EMS, Inc. (First Choice), was sentenced to 15 years of incarceration and ordered to pay
    $1.3 million in restitution after being convicted of 12 counts of health care fraud, conspiracy to commit
    health care fraud, and money laundering. Royal Ambulance and First Choice provided medically


March 2012                                                                                              Page 17
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011



    unnecessary transports of Medicare and Medicaid beneficiaries to and from dialysis treatments. This
    case was investigated jointly with the Internal Revenue Service (IRS), the FBI, the Texas MFCU, and the
    Office of Personnel Management.
•   INDIANA – Ali Abdelaziz Ahmed, owner of United Transportation (United), pleaded guilty to health care
    fraud and was ordered to pay restitution in the amount of $42,668. United and Ahmed had been under
    investigation, along with numerous other subjects, for upcoding ambulatory transportation services as
    wheelchair van transports. This upcoding scheme paid the provider twice the amount it should have
    received as reimbursement for the services provided. This case was jointly investigated with the Indiana
    MFCU.




March 2012                                                                                             Page 18
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                            Appendix A – OIG Reports Issued in FY 2011




                                              Appendix A

OIG Medicaid Audits
Issued in Fiscal Year 2011
The majority of reports listed in this appendix are available on the Office of Inspector General (OIG) Web site
at http://www.oig.hhs.gov. To access the reports, query on the report number shown after each title.
Reports not posted to the Web site may be requested through the Freedom of Information Act (FOIA). To
make a request under FOIA, please use the following link: http://www.oig.hhs.gov/foia/submit.asp.


Medicaid Hospitals

•   Review of Medicaid High-Dollar Payments for Inpatient Services in New York State From January 1, 2008,
    Through November 30, 2009, A-02-10-01036
•   Review of Medicaid High-Dollar Payments for Inpatient Services in Illinois From January 1, 2006, Through
    September 30, 2007—Hospitals With Five or More High-Dollar Payments, A-05-09-00049
•   Review of Medicaid High-Dollar Payments for Inpatient Services in Michigan From January 1, 2007,
    Through March 31, 2009, A-05-09-00095
•   Review of Select Medicaid Inpatient Psychiatric Hospital Service Requirements for One Illinois State-
    Owned Psychiatric Hospital During the Period January 1, 2000, Through December 31, 2009,
    A-05-10-00046
•   Review of Louisiana Medicaid Inpatient Hospital Family Planning Services, A-06-10-00076
•   Medicaid Hospital Outlier Payment Followup for Fiscal Years 2004 Through 2006, A-07-10-04160
•   Review of Medicaid Credit Balances at Natividad Medical Center as of October 31, 2010, A-09-11-02000


Medicaid Home, Community, and Nursing Home Care

•   Followup Review of Medicaid Cost-of-Care Overpayments Made to Nursing Facilities in the State of Maine,
    A-01-10-00008
•   Review of Medicaid Personal Care Services Claims Made by Providers in New York State, A-02-08-01005
•   Review of Personal Care Services Provided by Tri-State Home Health and Equipment Services, Inc., in the
    District of Columbia, A-03-08-00207
•   Review of Medicaid Payments to Senior Solutions Healthcare Management and Consulting, LLC for State
    Fiscal Years 2007 Through 2010, A-01-11-00003




                                                                                                        Page A–1
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                          Appendix A – OIG Reports Issued in FY 2011



•   Review of New York’s Medicaid Rehabilitative Services Claims Submitted by Community Residence
    Providers, A-02-08-01006
•   Review of Medicaid Payments for Services Provided Under New York’s Section 1915(c) Traumatic Brain
    Injury Waiver at Venture Forthe, Inc., From January 1, 2005, Through December 31, 2007, A-02-09-01005
•   Review of Medicaid Payments for Services Provided Under New York’s Section 1915(c) Traumatic Brain
    Injury Waiver at Belvedere of Albany, LLC, From January 1, 2005, Through December 31, 2007,
    A-02-09-01006
•   Review of Medicaid Payments for Services Provided Under New Jersey’s Section 1915(c) Community Care
    Waiver by Elwyn New Jersey From January 1, 2005, Through December 31, 2007, A-02-09-01033
•   Review of Federal Reimbursement Claimed by North Carolina for Medicaid Personal Care Services Claims
    Submitted by Shipman Family Home Care, Inc., A-04-09-04041
•   Review of Medicaid Personal Care Services Claims Submitted by Providers in North Carolina,
    A-04-10-04003
•   Review of Medicaid Personal Care Service Claims Submitted by Clarity Care, Inc., and Claimed by
    Wisconsin From July 1, 2006, Through June 30, 2008, A-05-10-00019
•   Review of Colorado Medicaid Payments for Home Health Agency Claims, A-07-10-01083
•   Review of Nebraska Medicaid Payments for Home Health Agency Claims, A-07-09-01077
•   Review of Colorado Medicaid Payments for Home Health Agency Claims Paid to Personal Assistance
    Services of Colorado, A-07-10-01087
•   Nebraska Medicaid Payments for Personal Care Services, A-07-10-03152
•   Review of Medicaid Personal Care Services Claimed by Washington State, A-09-09-00030
•   Unidentified and Unreported Federal Deficiencies in California’s Complaint Surveys of Nursing Homes
    Participating in the Medicare and Medicaid Programs, A-09-09-00114


Medicaid Prescription Drug Claims

•   Review of Arkansas Medicaid Prescription Drug Claims for the Quarter Ended December 31, 2008,
    A-06-09-00093
•   Review of Medicaid Prescription Drug Claims at Freds Pharmacy #1621, A-06-10-00040
•   Review of Medicaid Prescription Drug Claims at Harps Pharmacy #349, A-06-10-00065
•   Review of Medicaid Prescription Drug Claims at USA Express Pharmacy #1021, A-06-10-00042
•   Nationwide Rollup Report for Medicaid Drug Rebate Collections, A-06-10-00011
•   Review of California’s Invoicing of Rebates for Medicaid Compound Drug Expenditures—Electronic Claims,
    A-09-10-02006




                                                                                                      Page A–2
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                            Appendix A – OIG Reports Issued in FY 2011



Other Medicaid Services

•   Review of Louisiana Medicaid Physician Family Planning Services, A-06-10-00075
•   Review of Medicaid Credit Balances at Private Diagnostic Clinic, PLLC, at Duke University Medical Center
    as of March 31, 2010, A-04-10-04007
•   Review of Medicaid Hospice Payments Made by Massachusetts for State Fiscal Years 2007 and 2008,
    A-01-10-00004
•   Review of Medicaid Hospice Payments to Evercare Hospice & Palliative Care for State Fiscal Years 2007
    Through 2009, A-01-10-00012
•   Review of Medicaid Reimbursement Rates for School-Based Services in West Virginia, A-03-05-00203
•   Review of Medicaid Residential Rehabilitation Services for Children in Maryland, A-03-08-00209
•   Family Planning Services Claimed by Ohio From October 1, 2007, Through September 30, 2009,
    A-05-10-00035
•   Review of District of Columbia Medicaid Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
    Provider Enrollment Practices, A-03-10-00203
•   Review of Provider Compliance With the District of Columbia’s Medicaid Durable Medical Equipment
    Program Standards for Physical Presence, A-03-11-00202
•   Review of Medicaid Services to Incarcerated Juveniles in the State of South Carolina During Federal Fiscal
    Years 2004 and 2005, A-04-07-00034
•   Family Planning Services Claimed by Illinois From October 1, 2007, Through September 30, 2009,
    A-05-10-00053
•   Review of Indiana Medicaid Intraoral Radiographs Paid in Excess of Reimbursement Limits During the
    Period January 1, 2009, through December 31, 2009, A-05-10-00070
•   Review of Nonemergency Medical Transportation Costs in the State of Texas (Transportation Provided by
    the League of United Latin American Citizens – Project Amistad), A-06-09-00090
•   Review of Medicaid Hysterectomy Expenditures Claimed as Family Planning in Oklahoma for Calendar
    Years 2005 to 2009, A-06-10-00047
•   Review of Child Delivery Claims and Newborn Claims Included in the Kansas Medicaid Family Planning
    Program, A-07-10-04156
•   Review of Sterilization Procedures in the Kansas Family Planning Program, A-07-10-04162
•   Review of Costs Claimed by the State of Nebraska for Non-Emergency Medical Transportation Services
    Provided by Shared Mobility Coach, A-07-10-04172
•   Review of Family Planning Services Claimed by Washington State During the Period October 1, 2005,
    Through September 30, 2008, A-09-09-00049




                                                                                                        Page A–3
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                           Appendix A – OIG Reports Issued in FY 2011



•   Review of Additional Claims for Sterilization Procedures in the Colorado Medicaid Family Planning
    Program, A-07-11-01096
•   Review of Medicaid Family Planning Services Claimed Under the Oregon Health Plan During the Period
    October 1, 2006, Through September 30, 2009, A-09-10-02043


Medicaid Administration

•   Review of American Recovery and Reinvestment Act of 2009 Medicaid Prompt Pay Requirements in New
    Hampshire, A-01-10-00009
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in New
    York State for the Quarter Ended September 30, 2009, A-02-10-01020
•   Review of the Maine Department of Health and Human Services Buy-In of Medicare Parts A and B for the
    Period July 1, 2008, Through December 31, 2009, A-01-10-00013
•   Review of the Massachusetts Executive Office of Health and Human Services Buy-In of Medicare Parts A
    and B for the Period July 2008 Through December 2009, A-01-11-00004
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    Puerto Rico for the Quarter Ended September 30, 2009, A-02-10-01038
•   Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department of Aging’s Healthy
    Steps Program, A-03-10-00205
•   Review of Administrative Costs Claimed for Pennsylvania’s Home and Community-Based Waiver for
    Individuals Aged 60 and Over, A-03-10-00202
•   Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department of Aging’s Direct Care
    Worker Initiative, A-03-10-00206
•   Reconciliation of North Carolina Division of Medical Assistance’s Form CMS-64 for the Medicaid Family
    Planning Program, A-04-10-01092
•   Review of Alabama’s Compliance With the Reserve or Rainy Day Fund Requirement for the Increased
    Federal Medical Assistance Percentage Under the American Recovery and Reinvestment Act,
    A-04-10-03058
•   Review of Florida’s Children’s Health Insurance Program Experience Adjustment and Refund Submission
    Reports, A-04-10-06123
•   Review of Indiana’s Reporting Fund Recoveries for Federal and State Medicaid Programs on the Form
    CMS-64 for Federal Fiscal Years 2000 Through 2008, A-05-09-00021
•   Review of Illinois’ Prompt Pay Compliance Under the American Recovery and Reinvestment Act of 2009
    From January 1, 2009, Through September 30, 2009, A-05-09-00083
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    Indiana for the Quarter Ending March 31, 2009, A-05-09-00091



                                                                                                        Page A–4
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                           Appendix A – OIG Reports Issued in FY 2011



•   Review of State of Minnesota Reporting Medicaid Fraud Control Unit Recoveries on the CMS-64 for the
    Period October 1, 2005, Through December 31, 2008, A-05-10-00043
•   Review of Michigan’s Payment Error Rate Measurement Corrective Action Plan, A-05-10-00062
•   Review of Ohio’s Payment Error Rate Measurement Corrective Action Plan, A-05-10-00063
•   Oversight and Evaluation of the Fiscal Year 2008 Payment Error Rate Measurement Program,
    A-06-09-00037
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    Oklahoma, A-06-09-00097
•   Review of Medicaid Payments for Deceased Recipients in New Mexico, A-06-10-00093
•   Review of Kansas’s Compliance With the Federal Prompt Payment Requirements, A-07-10-01084
•   Review of South Dakota’s Buy-In of Medicare Part B Premiums for Medicaid Beneficiaries from October
    2008 Through September 2009, A-07-10-02757
•   Review of Medicaid Excluded Providers in Iowa, A-07-10-03149
•   Review of Medicaid Excluded Providers in Missouri, A-07-10-03153
•   Review of Medicaid Expenditures for Medicare Part A and Part B Premiums in Missouri, A-07-10-03158
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in Iowa
    for the Quarter Ended March 31, 2009, A-07-11-03165
•   Review of Washington State’s Medicaid Claims for Nonqualified Aliens, A-09-09-00039
•   Audit of Oregon’s Medicaid Management Information System Expenditures for the Period October 1,
    2007, Through September 30, 2009, A-09-10-02017


Medicaid Information Technology Reviews

•   MMIS Business Associate Agreements - New Jersey, A-02-08-03002
•   Review of Medicaid Information Technology Controls at the State of Illinois as of March 2010,
    A-05-09-00058
•   Review of Information System Controls at the Texas Health and Human Services Commission,
    A-06-10-00035
•   Review of Network Security Controls for Medicaid Eligibility Determinations at Iowa Department of
    Human Services, A-07-10-00325
•   Followup Audit of General Control for Medicaid Eligibility Determinations and Claims Processing at Kansas
    Department of Social and Rehabilitations Services, A-07-10-00328
•   Review of Network Security Controls for Medicaid Eligibility Determinations at Kansas Department of
    Social and Rehabilitation Services, A-07-10-00339



                                                                                                       Page A–5
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                          Appendix A – OIG Reports Issued in FY 2011



•   Followup Audit of General Controls for Kansas Medicaid Claims Processing at Electronic Data Systems, an
    HP Company, A-07-10-00340
•   Review of Security Controls for Kansas Medicaid Claims Processing at Hewlett-Packard Enterprise Services,
    A-07-10-00341
•   Review of General Controls Over First Health Services Corporation (Nevada's MMIS Fiscal Agent),
    A-09-09-00133
•   Review of Data Security Controls over Oregon's Medicaid Claims Processing, A-09-10-03003
•   Review of Data Security Controls Over Hawaii's Medicaid Claims Processing System, A-09-11-03005




OIG Medicaid Program Evaluation
Reports Issued in Fiscal Year 2011
•   FDA’s Approval Status of Drugs Paid for by Medicaid, OEI-03-08-00500
•   States’ Collection of Medicaid Rebates for Physician-Administered Drugs, OEI-03-09-00410
•   Replacing Average Wholesale Price: Medicaid Drug Payment Policy, OEI-03-11-00060
•   Brand-Name Drugs: Rising Prices Are Offset by Manufacturer Rebates, OEI-03-10-00260
•   State Medicaid Policies and Oversight Activities Related to 340B-Purchased Drugs, OEI-05-09-00321
•   Inappropriate Claims for Medicaid Personal Care Services, OEI-07-08-00430
•   Nursing Facilities' Employment of Individuals With Criminal Convictions, OEI-07-09-00110
•   Medicaid Payments for After-Hours Services, OEI-07-11-00050
•   Medicaid Services Provided in an Adult Day Health Setting, OEI-09-07-00500




                                                                                                      Page A–6
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                  Appendix B – Medicaid Projects In FY 2012 Work Plan




                                              Appendix B

Medicaid Projects
From the Fiscal Year 2012 OIG Work Plan
THE U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES (HHS) Office of Inspector General (OIG) Work Plan for Fiscal
Year 2012 (Work Plan) provides brief descriptions of new and ongoing reviews and activities that OIG plans to
pursue with respect to HHS programs and operations during the next 12 months and beyond. OIG’s Work
Plans are available on our Web site at: http://www.oig.hhs.gov/reports-and-publications/workplan/index.asp




Medicaid Prescription Drug Pricing,
Reimbursement, and Rebates

CALCULATION OF AVERAGE MANUFACTURER PRICES. We will review selected drug manufacturers to evaluate
methodologies they use to calculate the average manufacturer price (AMP) and the best price for the
Medicaid drug rebate program and for drug reimbursement. (OAS; W-00-11-31202; various reviews; expected
issue date: FY 2012; new start)
RECALCULATION OF BASE-DATE AVERAGE MANUFACTURER PRICES. We will review changes to base-date AMPs and
assess the impact of such changes on Medicaid rebates. (OEI; 00-00-00000; expected issue date: FY2012;
new start)
FEDERAL UPPER PAYMENT LIMIT (FUL) DRUGS. We will review prescription drug claims to determine whether
pharmacies have altered prescriptions to maximize reimbursements by avoiding certain dosage forms for
drugs that have FULs on reimbursements. (OAS; W-00-12-31333; various reviews; expected issue date:
FY 2012; new start)
STATE MAXIMUM ALLOWABLE COST PROGRAMS. We will review State Maximum Allowable Cost (State MAC)
programs to determine how State MAC lists are developed, how State MAC prices are set, and how State MAC
prices compare to the FUL amounts. (OEI; 03-11-00640; expected issue date: FY 2012; work in progress)
APPROPRIATENESS OF FUL AMOUNTS (NEW). We will compare FUL amounts under the Patient Protection and
Affordable Care Act of 2010 (Affordable Care Act) methodology to an estimate of pharmacy acquisition costs
for selected drugs. (OEI; 03-11-00650; expected issue date: FY 2012; work in progress; Affordable Care Act)
UPDATE OF MANUFACTURER COMPLIANCE WITH AMP REPORTING REQUIREMENTS (NEW). We will review
manufacturer compliance with AMP reporting requirements and determine what percentage of
manufacturers complied with AMP reporting requirements in 2011. (OEI; 00-00-00000; expected issue date:
FY 2012; new start)
STATES’ MEDICAID DRUG CLAIMS. We will review the accuracy of States’ submissions of Medicaid drug claims to
the Centers for Medicare & Medicaid Services (CMS) for reimbursement. (OAS; W-00-10-31203;
W-00-11-31203; various reviews; expected issue date: FY 2012; work in progress)


                                                                                                       Page B–1
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                   Appendix B – Medicaid Projects In FY 2012 Work Plan



COMPOUND DRUG CLAIMS. We will review a State agency’s Medicaid claims for compound drugs to determine
whether the drugs’ components complied with Federal requirements for reimbursement and collection of
rebates. (OAS; W-00-12-31317; various reviews; expected issue date: FY 2012; work in progress)
MEDICAID CLAIMS FOR DRUGS PURCHASED UNDER RETAIL DISCOUNT GENERIC PROGRAMS. We will review Medicaid
claims for generic drugs to determine the extent to which large chain pharmacies are billing Medicaid the
usual and customary charges for drugs provided under their retail discount generic programs.
(OEI; 00-00-00000; expected issue date: FY 2012; new start)
IMPACT OF THE DEFICIT REDUCTION ACT OF 2005 ON REBATES FOR AUTHORIZED GENERIC DRUGS. We will review
drug-pricing and rebate data that drug manufacturers report to State Medicaid agencies to determine the
extent to which manufacturers are reporting pricing data and paying rebates for authorized generic drugs.
(OEI; 00-00-00000; expected issue date: FY 2012; new start)
ZERO-DOLLAR UNIT REBATE AMOUNTS. We will determine whether States are effectively collecting drug rebates
from manufacturers for drugs with zero-dollar unit rebate amounts. (OEI; 03-11-00470; expected issue date:
FY 2012; work in progress)
STATES’ EFFORTS AND EXPERIENCES WITH RESOLVING REBATE DISPUTES. We will review the causes of and
resolutions to Medicaid rebate disputes and the methods States use to resolve such disputes.
(OEI; 05-11-00580; expected issue date: FY 2012; work in progress)
STATES’ COLLECTION OF REBATES FOR DRUGS PAID BY MANAGED CARE ORGANIZATIONS (NEW). We will review
whether Medicaid managed care organizations (MCO) are providing State Medicaid agencies with the
utilization data needed to collect rebates for drugs used by Medicaid MCOs enrollees. (OEI; 03-11-00480;
expected issue date: FY 2012; work in progress)
FEDERAL SHARE OF REBATES (NEW). We will review States’ reporting of the Federal share of Medicaid rebate
collections. (OAS; W-00-12-31450; various reviews; expected issue date: FY 2012; new start; Affordable Care
Act)
REBATES ON NEW FORMULATIONS (NEW). We will review drug manufacturers’ compliance with Medicaid drug
rebate requirements for drugs that are new formulations of existing drugs. (OAS; W-00-12-31451; various
reviews; expected issue date: FY 2012; new start; Affordable Care Act)


Home, Community, and Personal Care Services

HOME HEALTH SERVICES: SCREENINGS OF HEALTH CARE WORKERS. We will review health-screening records of
Medicaid home health care workers to determine whether the workers were screened in accordance with
Federal and State requirements. (OAS; W-00-11-31387; various reviews; expected issue date: FY 2012; new
start)
HOME HEALTH SERVICES CLAIMS. We will review home health agency claims to determine whether providers
have met applicable criteria to provide services and whether beneficiaries have met eligibility criteria.
(OAS; W-00-10-31304; W-00-11-31304; various reviews; expected issue date: FY 2012; work in progress)
HOME HEALTH SERVICES: HOMEBOUND REQUIREMENTS (NEW). We will review CMS policies and practices for
reviewing the sections of Medicaid State plans related to eligibility for home health services and describe how


                                                                                                        Page B–2
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                  Appendix B – Medicaid Projects In FY 2012 Work Plan



CMS intends to enforce compliance with appropriate eligibility requirements for home health services.
(OEI; 00-00-00000; expected issue date: FY 2012; new start)
HOME- AND COMMUNITY-BASED SERVICES: FEDERAL AND STATE OVERSIGHT OF QUALITY OF CARE. We will review
CMS and State oversight of home- and community-based services (HCBS) waiver programs to determine the
extent to which CMS oversees States’ efforts to ensure the quality of care provided under such waiver
programs. (OEI; 02-08-00170; expected issue date: FY 2012; work in progress)
HOME- AND COMMUNITY-BASED SERVICES: FEDERAL AND STATE OVERSIGHT OF ASSISTED-LIVING FACILITIES. We will
determine the extent to which assisted-living facilities provide HCBS to their Medicaid-eligible residents.
(OEI; 09-08-00360; expected issue date: FY 2012; work in progress)
HOME- AND COMMUNITY-BASED SERVICES: VULNERABILITIES IN PROVIDING SERVICES (NEW). We will determine the
extent to which HCBS waiver participants have plans of care, receive the services in their plans, and receive
services from qualified providers. We will also identify recipient concerns about the quality of care they
receive. (OEI; 02-11-00700; expected issue date: FY 2013; work in progress)
HOME- AND COMMUNITY-BASED SERVICES: WAIVER PROGRAM ADMINISTRATIVE COSTS. We will determine the
reasonableness of Medicaid HCBS waiver program administrative costs. (OAS; W-00-11-31332; various
reviews; expected issue date: FY 2012; work in progress)
HOME- AND COMMUNITY-BASED SERVICES: ADULT DAY CARE SERVICES FOR ELDERLY INDIVIDUALS WHO HAVE
CHRONIC FUNCTIONAL DISABILITIES. We will determine whether Medicaid payments to providers for adult day
care services complied with Federal and State regulations. (OAS; W-00-11-31386; various reviews; expected
issue date: FY 2012; new start)
COMMUNITY RESIDENCE REHABILITATION SERVICES. We will review Medicaid payments for beneficiaries who
reside in community residences for people who have mental illnesses to determine whether States
improperly claimed FFP. (OAS; W-00-09-31087; W-00-10-31087; W-00-11-31087; various reviews; expected
issue date: FY 2012; work in progress)
CONTINUING DAY TREATMENT PROVIDERS. We will review Medicaid payments to continuing day treatment (CDT)
providers in one State to determine whether Medicaid payments to CDT providers in that State are
adequately supported. (OAS; W-00-09-31128; W-00-11-31128; various reviews; expected issue date:
FY 2012; work in progress)
MEDICAID SCHOOL-BASED SERVICES. We will review Medicaid payments for school-based services in selected
States to determine whether the costs claimed for such services are reasonable and properly allocated.
(OAS; W‐00‐11‐31391; various reviews; expected issue date: FY 2012; work in progress)
PERSONAL CARE SERVICES. We will review Medicaid payments for personal care services (PCS) to determine
whether States have appropriately claimed the FFP. (OAS; W-00-09-31035; W-00-10-31035;
W-00-11-31035; various reviews; expected issue date: FY 2012; work in progress)


Other Medicaid Services and Payments

HOSPICE SERVICES: COMPLIANCE WITH REIMBURSEMENT REQUIREMENTS. We will determine whether Medicaid
payments for hospice services complied with Federal reimbursement requirements. (OAS; W-00-11-31385;


                                                                                                       Page B–3
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                 Appendix B – Medicaid Projects In FY 2012 Work Plan



various reviews; expected issue date: FY 2012; new start. OEI; 00-00-00000; expected issue date: FY 2013;
new start)
POTENTIALLY EXCESSIVE MEDICAID PAYMENTS FOR INPATIENT AND OUTPATIENT SERVICES. We will review State
controls to detect potentially excessive Medicaid payments to institutional providers for inpatient and
outpatient services. (OAS; W-00-11-31127; various reviews; expected issue date: FY 2012; work in progress)
PAYMENTS FOR PHYSICAL, OCCUPATIONAL, AND SPEECH THERAPY SERVICES. We will determine the extent to which
payments for Medicaid physical, occupational, and speech therapy services comply with State standards and
limits on coverage. (OEI; 07-10-00370; expected issue date: FY 2012; work in progress)
MEDICAID MEDICAL EQUIPMENT. We will determine whether Medicaid payments for medical supplies and
equipment were properly authorized by physicians, the products were received by the beneficiaries, and the
amounts paid were within Medicaid payment guidelines. (OAS; W-00-11-31390; various reviews; expected
issue date: FY 2012; new start)
MEDICAID FAMILY PLANNING SERVICES. We will review family planning services in several States to determine
whether enhanced Federal funding was improperly claimed for such services and the resulting financial
impact on Medicaid. (OAS; W-00-10-31078; W-00-11-31078; various reviews; expected issue date: FY 2012;
work in progress)
PAYMENTS FOR TRANSPORTATION SERVICES. We will review payments to providers for transportation services to
determine the appropriateness of State Medicaid agencies’ payments for such services. (OAS;
W-00-09-31121; W-00-10-31121; W-00-11-31121; various reviews; expected issue date: FY 2012; work in
progress)
STATE-OPERATED FACILITIES: REASONABLENESS OF PAYMENT RATES (NEW). We will determine whether Medicaid
payment rates to State-operated facilities are reasonable and in accordance with Federal and State
requirements. (OAS; W-00-11-31398; various reviews; expected issue date: FY 2012; work in progress)
PAYMENTS FOR HEALTH-CARE-ACQUIRED CONDITIONS (NEW). We will determine whether selected State agencies
made Medicaid payments for health-care-acquired conditions and provider-preventable conditions and
quantify the amount of Medicaid payments for such conditions. (OAS; W-00-12-31452; various reviews;
expected issue date: FY 2013; new start; Affordable Care Act)
SUPPLEMENTAL PAYMENTS TO PRIVATE HOSPITALS. We will review Medicaid supplemental payments by States to
private hospitals to determine whether errors exist involving such payments. (OAS; W-00-10-31126;
W-00-11-31126; various reviews; expected issue date: FY 2012; work in progress)
SUPPLEMENTAL PAYMENTS TO PUBLIC PROVIDERS (NEW). We will review Medicaid supplemental payments by
States to public providers (State and Non-State government operated facilities) and determine whether they
comply with Federal upper payment limit requirements. (OAS; W‐00‐12‐31453; various reviews; expected
issue date: FY 2013; new start)
MEDICAID NURSING FACILITY INCENTIVE PAYMENTS. We will review Medicaid incentive payments by States to
nursing facilities based on the facilities’ quality-of-care performance measures. (OAS; W-00-10-31331;
W-00-11-31331; various reviews; expected issue date: FY 2012; work in progress)




                                                                                                      Page B–4
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                   Appendix B – Medicaid Projects In FY 2012 Work Plan



EMERGENCY PAYMENTS BY STATE MEDICAID AGENCIES (NEW). We will determine whether emergency payments to
providers made by State Medicaid agencies were adequately supported. (OAS; W-00-12-31454; various
reviews; expected issue date: FY 2012; new start)


Medicaid Integrity and Accountability

EARLY RESULTS FROM MEDICAID INTEGRITY CONTRACTORS. We will review the progress of CMS’s Medicaid
Integrity Contractors (MIC) in completing program integrity tasks outlined in their contracts.
(OEI; 05-10-00200; 05-10-00210; expected issue date: FY 2012; work in progress)
MEDICARE AND MEDICAID DATA MATCHING PROJECT. We will review CMS’s oversight and monitoring of the
Medicare and Medicaid Data Matching Project (Medi-Medi) contractors to determine whether they are
meeting contractual requirements outlined in the Medi-Medi task orders. (OEI; 09-08-00370; expected issue
date: FY 2012; work in progress)
ADDRESSING VULNERABILITIES IDENTIFIED DURING MEDICAID STATE PROGRAM INTEGRITY REVIEWS (NEW). We will
review corrective actions that State Medicaid agencies have implemented to address the findings and
recommendations from State Medicaid program integrity reviews conducted by CMS. (OEI; 00-00-00000;
expected issue date: FY 2012; new start)
CLAIMS WITH INACTIVE OR INVALID PHYSICIAN IDENTIFIER NUMBERS. We will review Medicaid claims to determine
the extent to which State agencies have controls in place to identify claims associated with inactive or invalid
national provider identifiers (NPI), including claims for services alleged to have been provided after the dates
of the referring physicians’ deaths. (OAS; W-00-11-31338; various reviews; expected issue date: FY 2012; new
start)
BENEFICIARIES WITH MULTIPLE MEDICAID IDENTIFICATION NUMBERS. We will review duplicate payments on behalf
of Medicaid beneficiaries with multiple Medicaid identification numbers and the procedures for preventing
such payments. (OAS; W-00-11-31374; various reviews; expected issue date: FY 2012; work in progress)
STATE MEDICAID FRAUD CONTROL UNITS PERFORMANCE STANDARDS. We will review the overall management,
operations, and performance of a State Medicaid Fraud Control Unit (MFCU). (OEI, 02-11-00440, expected
issue date: FY 12; work in progress; multiple reviews; new start)
STATE AGENCIES’ TERMINATIONS OF PROVIDERS TERMINATED UNDER MEDICARE OR BY OTHER STATES (NEW). We will
review States’ compliance with a new requirement that State Medicaid agencies terminate providers that
have been terminated under Medicare or by another State. (OEI; 00-00-00000; expected issue date: FY 2012;
new start; Affordable Care Act)
FEDERALLY EXCLUDED PROVIDERS AND SUPPLIERS. We will review Medicaid payments to providers and suppliers
to determine the extent to which payments were for services provided during periods of exclusion from
Medicaid. (OAS; W‐00‐10‐31337; W‐00‐11‐31337; various reviews; expected issue date: FY 2012; work in
progress)
STATES’ CONTINGENCY FEE PAYMENT ARRANGEMENTS. We will determine the extent to which State Medicaid
agencies have contracted with consultants through contingency fee payment arrangements and determine
how the arrangements have affected the submission of questionable or improper claims to the Federal



                                                                                                        Page B–5
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                  Appendix B – Medicaid Projects In FY 2012 Work Plan



Government. (OAS; W-00-07-31045; W-00-08-31045; W-00-11-31045; various reviews; expected issue date:
FY 2012; work in progress)
FEDERAL FUNDS GENERATED THROUGH MEDICAID PROVIDER TAXES (NEW). We will review State health-care-
related taxes imposed on various Medicaid providers to determine whether the taxes comply with applicable
Federal requirements. (OAS; W-00-12-31455; various reviews; expected issue date: FY 2013; new start)
IMPACT OF CERTIFIED PUBLIC EXPENDITURES. We will determine whether States are complying with Federal
regulations for claiming certified public expenditures (CPE). (OAS; W-00-12-31110; various reviews; expected
issue date: FY 2012; new start)
OVERPAYMENTS: MEDICAID CREDIT BALANCES. We will review patient accounts of providers to determine
whether there are Medicaid overpayments in the accounts with credit balances. (OAS; W-00-10-31311;
W-00-11-31311; various reviews; expected issue date: FY 2012; work in progress)
STATES’ EFFORTS TO IMPROVE THIRD-PARTY LIABILITY PAYMENT COLLECTIONS IN MEDICAID. We will review States’
procedures for identifying and collecting third-party payments for services provided to Medicaid beneficiaries
to determine the extent to which States’ efforts have improved since our last review.
(OEI; 05-11-00130; expected issue date: FY 2012; work in progress)
PROPER ALLOCATION OF MEDICAID ADMINISTRATIVE COSTS. We will review administrative costs claimed by
several States to determine whether they were properly allocated and claimed or directly charged to
Medicaid. (OAS; W-00-10-31123; W-00-11-31123; various reviews; expected issue date: FY 2012; work in
progress)
FORM CMS-64: OVERSIGHT OF STATE DATA REPORTING. We will review CMS’s oversight of State quarterly
expenditure reporting on the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (Form CMS-64). (OEI; 00-00-00000; expected issue date: FY 2012; new start)
FORM CMS-64: PHARMACY PRESCRIPTION DRUG CLAIMS. We will review Medicaid pharmacy prescription drug
claims for selected State Medicaid agencies to determine whether States accurately reported Medicaid
expenditures for prescription drugs and whether the claims related to the expenditures were adequately
supported by pharmacy records. (OAS; W-00-09-31318; W-00-11-31318; various reviews; expected issue
date: FY 2012; work in progress)
FORM CMS-64: MEDICAID MONETARY DRAWDOWNS (NEW). We will review the Medicaid monetary drawdowns
that States received from the Federal Reserve System to determine whether they were supported by actual
expenditures reported by the States on the Form CMS-64. (OAS; W-00-12-31456; various reviews; expected
issue date: FY 2012; new start)
FORM CMS-64: MEDICAID OVERPAYMENT REPORTING AND COLLECTIONS (NEW). We will determine whether
States are reporting overpayments identified by Federal audits on the Form CMS-64, as Federal regulations
require. (OAS; W-00-11-31399; various reviews; expected issue date: FY 2012; work in progress)
FORM CMS-64: ACCURACY OF MEDICAID COLLECTIONS AND FEDERAL SHARE (NEW). We will determine whether
States accurately captured Medicaid collections on their Form CMS-64, as well as returned the correct Federal
share related to those collections. (OAS; W-00-12-31457; various reviews; expected issue date: FY 2012; new
start)




                                                                                                       Page B–6
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                   Appendix B – Medicaid Projects In FY 2012 Work Plan



PAYMENT ERROR RATE MEASUREMENT: FISCAL YEAR 2008 ERROR RATE. We will evaluate certain aspects of CMS’s
Medicaid Payment Error Rate Measurement (PERM) process for determining the FY 2008 Medicaid fee for
service (FFS) payment error rate. (OAS; W-00-10-40045; W-00-11-40045; expected issue date: FY 2012; work
in progress)
PAYMENT ERROR RATE MEASUREMENT PROGRAM: ERROR RATE ACCURACY AND HEALTH INFORMATION SECURITY. We
will review CMS’s implementation of the PERM process to determine whether it has produced valid and
reliable error rate estimates for Medicaid and Children’s Health Insurance Program (CHIP) FFS, managed care,
and eligibility. (OAS; W-00-11-40046; various reviews; expected issue date: FY 2012; new start)
PAYMENT ERROR RATE MEASUREMENT PROGRAM: ELIGIBILITY DETERMINATIONS IN ONE STATE. We will review
compliance in one State with PERM requirements for reviewing eligibility in its Medicaid and CHIP programs.
(OAS; W-00-12-40038; expected issue date: FY 2012; new start)


Program Administration,
Information Systems, and Data Security

STATE BUY-IN OF MEDICARE COVERAGE. We will review States’ Medicaid buy-in programs for Medicare Part B to
determine whether States have adequate controls to ensure that Medicare premiums are paid only for
individuals eligible for State buy-in coverage of Medicare services. (OAS; W-00-10-31220; W-00-11-31220;
various reviews; expected issue date: FY 2012; work in progress)
PROVIDER ENROLLMENT: COLLECTION AND VERIFICATION OF PROVIDER OWNERSHIP INFORMATION BY STATE
MEDICAID AGENCIES. We will review State practices for collection and verification of Medicaid provider
ownership information, assess the accuracy of the information on file, and assess the effectiveness of the
practices. (OEI; 04-11-00590; expected issue date: FY 2012; work in progress)
BENEFICIARY ELIGIBILITY: STATE AGENCIES’ REDETERMINATIONS OF MEDICAID ELIGIBILITY (NEW). We will review State
agencies’ procedures for redetermining the eligibility status of Medicaid beneficiaries and determine the
amount of unallowable payments associated with beneficiaries who did not receive the required Medicaid
eligibility redeterminations. (OAS; W-00-11-31140; various reviews; expected issue date: FY 2012; work in
progress)
STATE MEDICAID PLANS’ VACCINES FOR CHILDREN PROGRAM: STORAGE AND MANAGEMENT OF VACCINES. We will
determine the extent to which providers in the Vaccines for Children program (which is a required part of
each State's Medicaid plan) are properly storing and managing vaccines. (OEI; 04-10-00430; expected issue
date: FY 2012; work in progress)
CHILDREN’S HEALTH INSURANCE PROGRAM: DUALLY ENROLLED BENEFICIARIES IN A STATE. We will assess the
appropriateness of a State’s claims for FFP under the State’s CHIP program for individuals who were enrolled
in the State’s Medicaid program. (OAS; W-00-10-31314; W-00-11-31314; various reviews; expected issue
date: FY 2012; work in progress)
CHILDREN’S HEALTH INSURANCE PROGRAM: STATE COMPLIANCE WITH ELIGIBILITY AND ENROLLMENT NOTIFICATION
AND REVIEW REQUIREMENTS. We will review State compliance with the CHIP eligibility and enrollment
notification and review requirements. (OEI; 00-00-00000; expected issue date: FY 2012; new start)



                                                                                                        Page B–7
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                      Appendix B – Medicaid Projects In FY 2012 Work Plan



CHILDREN’S HEALTH INSURANCE PROGRAM ADMINISTRATIVE COSTS. We will determine whether States are
complying with CHIP’s 10-percent cap on administrative costs. (OAS; W-00-10-31226; W-00-11-31226;
various reviews; expected issue date: FY 2012; work in progress)
MEDICAID MANAGEMENT INFORMATION SYSTEM COSTS. We will review Medicaid Management Information
System (MMIS) costs in selected States to determine whether costs allocated to Medicaid are allowable.
(OAS; W-00-10-31312; W-00-11-31312; various reviews; expected issue date: FY 2012; work in progress)
STATES’ USE OF THE PUBLIC ASSISTANCE REPORTING INFORMATION SYSTEM TO REDUCE MEDICAID BENEFITS
RECEIVED FROM MORE THAN ONE STATE. We will review eligibility data from the Public Assistance Reporting
Information System (PARIS) to determine the extent to which States use PARIS to identify Medicaid recipients
who are simultaneously receiving Medicaid benefits in more than one State. (OEI; 09-11-00780; expected
issue date: FY 2012; work in progress)
MEDICAID NATIONAL CORRECT CODING INITIATIVE EFFECTIVENESS (NEW). We will review selected States’
implementation of National Correct Coding Initiative (NCCI) edits for Medicaid claims.
(OAS; W-00-12-31459; various reviews; expected issue date: FY 2013; new start; OEI; 00-00-00000; expected
issue date: FY 2012; new start; Affordable Care Act)
MEDICAID MANAGEMENT INFORMATION SYSTEMS BUSINESS ASSOCIATE AGREEMENTS. We will review CMS’s
oversight activities related to data security requirements of State MMIS, which process and pay claims for
Medicaid benefits. (OAS; W-00-11-41015; various reviews; expected issue date: FY 2012; work in progress)
CMS OVERSIGHT AND ACCURACY OF NURSING HOME MINIMUM DATA SET DATA. We will review CMS’s oversight of
Minimum Data Set (MDS) data submitted by nursing homes certified to participate in Medicare or Medicaid.
(OEI; 00-00-00000; expected issue date: FY 2012; new start)
MEDICAID SECURITY CONTROLS OVER STATE WEB-BASED APPLICATIONS. We will review States’ security controls
over Web-based applications that allow Medicaid providers to electronically submit claims to determine
whether they contain any vulnerabilities that could affect the confidentiality, integrity, and availability of the
Medicaid claims’ protected health information. (OAS; W-00-12-41016; various reviews; expected issue date:
FY 2012; new start)
MEDICAID SECURITY CONTROLS AT THE MAINFRAME DATA CENTERS THAT PROCESS STATES’ CLAIMS DATA. We will
review security controls at States’ mainframe data centers that process Medicaid claims data. (OAS;
W-00-10-40019; W-00-11-40019; expected issue date: FY 2012; work in progress, new start)


Medicaid Managed Care

COMPLETENESS AND ACCURACY OF MANAGED CARE ENCOUNTER DATA (NEW). We will determine the extent to
which Medicaid managed care encounter data included in Medicaid Statistical Information System (MSIS)
submissions to CMS accurately represent all services provided to beneficiaries. (OEI; 00-00-00000; expected
issue date: FY 2012; new start; Affordable Care Act)
MANAGED CARE ENTITIES’ MARKETING PRACTICES. We will review State Medicaid agencies’ oversight policies,
procedures, and activities to determine the extent to which States monitor Medicaid managed care entities’




                                                                                                           Page B–8
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                 Appendix B – Medicaid Projects In FY 2012 Work Plan



(MCE) marketing practices and compliance with Federal and State contractual marketing requirements. (OEI;
00-00-00000; expected issue date: FY 2012; new start)
STATE OVERSIGHT OF PROVIDER CREDENTIALING BY MANAGED CARE ENTITIES. We will determine how States ensure
that Medicaid MCEs (specifically MCOs), prepaid inpatient health plans, and prepaid ambulatory health plans
comply with credentialing and recredentialing requirements. (OEI; 09-10-00270; expected issue date:
FY 2012; work in progress)
EXCLUDED INDIVIDUALS EMPLOYED BY MANAGED CARE NETWORKS. We will determine the extent to which OIG-
excluded individuals were employed by entities that provide services through MCE provider networks in
2009. (OEI; 07-09-00632; expected issue date: FY 2012; work in progress)
MANAGED CARE FRAUD AND ABUSE SAFEGUARDS. We will review Medicaid MCO fraud and abuse safeguards and
State Medicaid agencies’ oversight plans and procedures and determine the extent to which States monitor
such safeguards for compliance with Federal requirements. (OEI; 01-09-00550; expected issue date: FY 2012;
work in progress)
MANAGED CARE ORGANIZATIONS’ USE OF PREPAYMENT REVIEW TO DETECT AND DETER FRAUD AND ABUSE. We will
determine the extent to which Medicaid MCOs use prepayment reviews to detect and deter fraud and abuse.
(OEI; 00-00-00000; expected issue date: FY 2013; new start)
MEDICAID MANAGED CARE PLANS’ MEDICAL LOSS RATIO. We will review managed care plans with contact
provisions that require a minimum percentage of total costs to be expended for medical expenditures
(medical loss ratio) to determine whether a refund was made to the State agency when the minimum medical
loss ratio threshold was not met. (OAS; W‐00‐11‐31372; various reviews; expected issue date: FY 2012; work
in progress)




                                                                                                      Page B–9
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                                Appendix C – DRA Requirements for OIG




                                              Appendix C

Deficit Reduction Act of 2005
Requirements Pertaining to HHS OIG
Sections 6001, 6031, and 6034 of the Deficit Reduction Act of 2005 (DRA) include provisions that require the
Department of Health and Human Services (HHS), Office of Inspector General (OIG), to conduct specified
activities, as well as to report annually on overall Medicaid activities. The sections are summarized below.


Section 6001: Drug Payment Provisions

Effective January 1, 2007, section 6001 required the Centers for Medicare & Medicaid Services (CMS) to
change its Federal upper limit (FUL) calculations (i.e., the method of setting limits on what the Federal
Government would reimburse Medicaid State agencies for prescription drug payments) to base the limits on
average manufacturer price (AMP) and to provide AMP data to States on a monthly basis beginning July 1,
2006. This section also required OIG to, by no later than June 1, 2006, (1) review the requirements for, and
manner in which, AMPs are determined under section 1927 of the Social Security Act and (2) submit to the
Secretary of HHS and Congress recommendations for changes in such requirements or manner as the
Inspector General determines to be appropriate.
OIG’s Related Actions. On May 30, 2006, OIG issued a report entitled Determining Average Manufacturer
Prices for Prescription Drugs Under the Deficit Reduction Act of 2005 (A-06-06-00063), which fulfilled this
statutory requirement. In this report, OIG found that existing requirements for determining aspects of AMP
were unclear and that manufacturers’ methods of calculating AMPs were inconsistent. OIG recommended
that the Secretary direct CMS to clarify requirements in regard to the definition of “retail class of trade” and
the treatment of pharmacy benefit manager rebates and Medicaid sales and to consider addressing issues
raised by industry groups. OIG also recommended that the Secretary direct CMS to issue guidance that
specifically addresses the implementation of the AMP-related reimbursement provisions of the DRA and to
encourage States to analyze the relationship between AMP and pharmacy acquisition cost before using AMP
for their reimbursement methodology.
OIG continued to address topics related to the FUL for multiple source drugs and other drug payment
provisions by issuing an evaluation report in June 2007 entitled Deficit Reduction Act of 2005: Impact on the
Medicaid Federal Upper Limit Program (OEI-03-06-00400). Although not required by the DRA, OIG completed
an additional evaluation report that compared FUL payment amounts to other prices in an August 2009
report entitled A Comparison of Medicaid Federal Upper Limit Amounts to Acquisition Costs, Medicare
Payment Amounts, and Retail Prices (OEI-03-08-00490). OIG found, as in previous work, that the FUL
payment amounts calculated under the current method continue to be substantially higher than other
payment methods that are also causing Medicaid to overpay for certain drugs.
Other Related Actions. In July, 2007, CMS issued a final regulation at 72 Fed. Reg. 39142 that implemented
the requirements of the DRA by establishing a new method of calculating FULs, based on AMPs and aimed at
reining in inflated drug product payments. The rule was to take effect on January 1, 2008. However, in


                                                                                                         Page C–1
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                                 Appendix C – DRA Requirements for OIG



December 2007, a Federal district court issued a preliminary injunction prohibiting CMS from implementing
the new FULs. While this prohibition was in effect, CMS continued to calculate FUL amounts based on the
previous formula (i.e., 150 percent of the lowest published price). Effective October 1, 2010, section
2503(a)(1) of the Affordable Care Act modified the previous statutory provisions for FULs under the DRA by
revising the Social Security Act, § 1927(e)(5), to establish FULs as no less than 175 percent of the weighted
average of the most recently reported monthly AMPs. CMS published a final rule at 75 Fed. Reg. 69591
(November 15, 2010) to withdraw those parts of the 2007 final rule that established upper limits for
multiple‐source drugs and revised the definition of AMP.


Section 6031: State False Claims Acts

Effective January 1, 2007, this section provides a financial incentive for States to enact false claims acts (FCA)
that establish liability to the States for the submission of false or fraudulent claims to the States’ Medicaid
programs. If a State’s FCA is determined to meet certain enumerated requirements, the Federal share of
Medicaid recoveries under the State FCA will be reduced by 10 percentage points, increasing the State’s share
by 10 percentage points.
Specifically, for a State to be eligible for the 10-percentage-point increase in its share of false claims
recoveries, the State law relating to false and fraudulent claims must be determined by OIG, in consultation
with the Attorney General, to meet the following criteria: it establishes liability to the State for false or
fraudulent claims described in the FCA with respect to Medicaid expenditures; it contains provisions that are
at least as effective in rewarding and facilitating qui tam actions as those in the FCA; it contains a requirement
for filing an action under seal for 60 days with review by the State Attorney General; and it contains a civil
penalty that is not less than the amount authorized by the FCA. Following are OIG’s related actions:
•   On August 21, 2006, OIG published in the Federal Register (71 Fed. Reg. 48552) its guidelines for
    evaluating State FCAs under the requirements of section 6031 of the DRA. This notice was developed in
    consultation with the Department of Justice’s (DOJ) Civil Division. In the notice, OIG invited the States to
    request review of their FCAs.
•   During FY 2008, OIG provided written responses to 10 States and approved 4 of the State laws—those
    passed by California, Georgia, Indiana, and Rhode Island—for the DRA incentive. OIG made these
    determinations in consultation with DOJ’s Civil Division.
•   During FY 2009, OIG provided written responses to three States and approved two of the State laws—
    those passed by Wisconsin and Michigan—for the DRA incentive. OIG made these determinations in
    consultation with DOJ’s Civil Division.
•   In 2009 and 2010, the FCA was amended. As a result of these amendments, OIG reviewed the 14 State
    laws that had previously been approved by OIG and determined that none still satisfy the requirements
    of section 6031 of the DRA. OIG provided the States with a 2-year grace period during which their laws
    will continue to be deemed compliant pending amendment and resubmission to OIG. In March 2011,
    OIG sent letters to the 14 States. OIG also provided written responses to 11 States that had submitted
    their laws for review. OIG did not approve any of the 11 submitted laws. The letters to the 14 states and
    the response letters are published on OIG’s Web site at http://www.oig.hhs.gov.




                                                                                                         Page C–2
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                                Appendix C – DRA Requirements for OIG



•   OIG has invited States to submit draft legislation for informal review and discussion prior to passage of
    the draft legislation. OIG has informally reviewed numerous States' draft legislation submitted in
    response to that invitation.


Section 6034: Medicaid Integrity Program

This section establishes the Medicaid Integrity Program (MIP) and requires the Secretary of HHS to enter into
contracts to enhance the capacity of CMS to conduct oversight of Medicaid expenditures. MIP’s activities
include: review of the actions of individuals or entities furnishing items or services for which a Medicaid
payment may be made; audit of claims for payment for items or services furnished or for administrative
services rendered; and education of service providers, managed care entities, beneficiaries, and other
individuals with respect to payment integrity and quality of care.
The section further establishes that from FY 2006 through FY 2010, $25 million shall be appropriated to OIG
for the Medicaid activities of OIG in addition to any other amounts appropriated or made available for
Medicaid oversight. Such funds shall remain available until expended. In FY 2011, MIP funds were still
available. This section also requires OIG to identify to Congress the use and effectiveness of OIG’s use of such
funds no later than 180 days after the end of each FY. This document responds to that requirement for
FY 2011.




                                                                                                        Page C–3
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                           Appendix D – Acronyms and Abbreviations




                                              Appendix D

Acronyms and Abbreviations
Selected acronyms and abbreviations used in this report are defined below.
ALJ     administrative law judge
AMP     average manufacturer price
AWP     average wholesale price
CDT     continuing day treatment
CHIP    Children’s Health Insurance Program
CIA     corporate integrity agreement
CMS     Centers for Medicare & Medicaid Services
CoP     conditions of participation
CPE     certified public expenditures
CY      calendar year
DME     durable medical equipment
DOJ     Department of Justice
EHR     electronic health record
FBI     Federal Bureau of Investigation
FDA     Food and Drug Administration
FFP     Federal financial participation
FFS     fee for service
FMAP    Federal Medical Assistance Percentage
FUL     Federal upper limit
FY      fiscal year
HCBS    home- and community-based services
HCFAC Health Care Fraud and Abuse Control program
HCPCS Healthcare Common Procedure Coding System
HHS     Department of Health and Human Services
IRS     Internal Revenue Service
MCE     managed care entity



                                                                                                    Page D–1
HHS Office of Inspector General
Medicaid Integrity Program Report – FY 2011                            Appendix D – Acronyms and Abbreviations



MCO     managed care organization
MFCU Medicaid Fraud Control Unit
MIC     Medicaid Integrity contractor
MIP     Medicaid Integrity Program
MMIS    Medicaid Management Information System
NCCI    National Correct Coding Initiative
OAS     Office of Audit Services
OEI     Office of Evaluation and Inspections
OIG     Office of Inspector General
PARIS   Public Assistance Reporting Information System
PCS     personal care services
PERM    Payment Error Rate Measurement program
State
MAC     State Maximum Allowable Cost
VA      Department of Veterans Affairs


Public Laws
DRA     Deficit Reduction Act of 2005, P.L. No. 109-171
FCA     False Claims Amendments Act of 1986, P.L. No. 99-562
HIPAA Health Insurance Portability and Accountability Act of 1996, P.L. No. 104-191


Recovery Act              American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
Affordable Care Act       Patient Protection and Affordable Care Act of 2010, P.L. No. 11-148, as amended by
                          the Health Care and Education Reconciliation Act of 2010, P.L. No. 111-52.


Not Abbreviated
Supplemental Appropriations Act of 2008, P.L. 110-252
Public Health Service Act of 1944




                                                                                                     Page D–2
